                                              UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


          AUD-IT-13-03                           Office of Audits                        November 2012




                      Audit of Department of State
                     Information Security Program 




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                              UNCLASSIFIED
                                         UNCLASSIFIED
                                                                United States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office of Inspector General



                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

         In accordance with the Federal Information Security Management Act of2002 (FISMA),
OlG performed an audit of the Department of State Information Security Program for FY 2012.
To perform this audit, OlG contracted with the independent public accountant Williams, Adley
& Company, LLP. The contract required that the independent public accountant perform its
evaluation in accordance with guidance contained in the Government Auditing Standards, issued
by the Comptroller General of the United States. The public accountant's report is included.
The report is based on interviews with employees and officials of relevant agencies and
institutions, direct observation, and a review of applicable documents.

       The independent public accountant identified areas in which improvements could be
made, including the risk management program, security configuration management, security
awareness and role-based training, plans of actions and milestones, account and identity
management, user provisioning process, continuous monitoring, remote access, continuity of
operations program, information systems contingency planning, oversight of contractor systems,
and capital planning.

       OlG evaluated the nature, extent, and timing of Williams, Adley & Company's work;
monitored progress throughout the evaluation; reviewed Williams, Adley & Company's
supporting documentation; evaluated key judgments; and performed other procedures as
appropriate. OlG concurs with Williams, Adley & Company's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. Ol G trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                       Harold W. Geisel
                                       Deputy Inspector General

                                         UNCLASSIFIED
                                           UNCLASSIFIED




                     WILLIAMS
                     ADLEY


                  Audit of the Department of State Infannation Securily I'rogram



November 7, 2012

Oflicc of Inspector General
U.S. Department of State
Washington, DC

Williams, Adley & Company-DC, LLP has pcrfonncd an audit of the Department of State's
(DepartmcnI) In(annalion Securit), Program. We audited the Dcpartml'l1I'S compliance with the
Federal Infonnation Security Management Act, Office of Mllnagcmcnt and Budget Tt."quirements,
and N:lIionat Institute of Standards and Technology stwldards. We pcrfonnl"<l Ihis audit under
Contract No. SAQMMA10F2159. The audit was designed to meet the obje1::tives described in the
report.

We conducted this pcrfonnance audit in accordance with GQ~'ern",enl Auditing Slandards, issued
by the Comptroller General afthe United States. We communicated the results of our audit and the
related findings and recommendations to the U.S. Department orState Offiee of Inspcctor General.

We appreciate the cooperation provided by State Department pcrsoMcl during the audit.




                                  WlLUAMS, ADLEY & COMPANY. DC. LLP
                            e_PtJbHc AceotH>_tl / ~1 c-wn..o,.
          1250 H street. tNt. Suite 1150 • Wuhlnuton. DC 2000f • (202) 371 -UI7   F..: (202) 311-t111
                                            _. wI '~ . com




                                           UNCLASSIFIED
                                 UNCLASSIFIED


Acronyms
AD           Active Directory
ATO          Authorization to Operate
BIA          Business Impact Analysis
C&A          Certification and Accreditation
CM           Configuration Management
COOP         Continuity of Operations Plan
Department   Department of State
DHS          Department of Homeland Security
DS           Bureau of Diplomatic Security
DS/SI/CS     Diplomatic Security/Security Infrastructure/Office of Computer Security
eCPIC        electronic Capital Planning Investment Control
FAM          Foreign Affairs Manual
FISMA        Federal Information Security Management Act
GAGAS        Generally Accepted Government Auditing Standards
GO           Global OpenNet
HR/ER/WLD    Human Resources/Employee Relations/Work Life Division
IRM/IA       Bureau of Information Resource Management, Office of Information
             Assurance
IT           information technology
NIST         National Institute of Standards and Technology
OIG          Office of Inspector General
OIP          Orientation and In Processing
OMB          Office of Management and Budget
POA&M        Plans of Action and Milestones
SP           Special Publication
SSA          Systems Security Authorization
SSR          Significant Security Responsibilities




                                 UNCLASSIFIED
                                                           UNCLASSIFIED


                                                        Table of Contents
Section                                                                                                                                    Page
Executive Summary ........................................................................................................................ 1 
Background ..................................................................................................................................... 6 
Objective ....................................................................................................................................... 6 
Results of Audit .............................................................................................................................. 6 
Finding A. Continuous Monitoring Program Needs To Be Improved .......................................... 7 
Finding B. End-to-End Configuration Management Process Needs Improvement ....................... 8 
Finding C. Standard Configuration Baselines for UNIX Need To Be Developed ...................... 10 
Finding D. Periodic Vulnerability and Compliance Scans Process and Capabilities Need
          Improvement ............................................................................................................... 11 
Finding E. Account Management Processes in Active Directory Need To Be Improved ........... 13 
Finding F. The User Provisioning Process for Creating, Modifying, and Disabling Users’
           Accounts Requires Significant Improvement ............................................................. 15 
Finding G. Risk Management Framework Needs Improvement ................................................. 18 
Finding H. Information Security Training Requirements Were Not Enforced ........................... 20 
Finding I. Plans of Action and Milestones Are Not Effective ..................................................... 21 
Finding J. Remote Access Policies and Procedures Need Improvement...................................... 23 
Finding K. The Continuity of Operations Program Needs To Be Improved ............................... 24 
Finding L. Information System Contingency Plans Need To Be Improved ................................ 26 
Finding M. Oversight of Contractor Systems and Extensions Needs Improvement ................... 27 
Finding N. Security Capital Planning Requires Improvement .................................................... 28 
List of Current Year Recommendations ....................................................................................... 31 
A. Scope and Methodology........................................................................................................... 35 
B. Follow-up of Recommendations From the FY 2011 FISMA Report ...................................... 39 
C.End-to-End Configuration Management Process Needs Improvement .................................... 45 
D. Weak Active Directory User Account Management ............................................................... 48 
E.Sample Selection of Information Systems Listed in Information Technology Asset Baseline
          Used for FY 2012 Audit – Vulnerability Assessment ................................................ 49 
F. Missing NIST SP 800-53, Revision 3, Baseline Security Controls.......................................... 51 
G. FISMA Reportable Systems That Have Not Completed the FY 2012 Contingency Plan Test52 
H. FISMA Reportable Systems Missing Alternate Processing Site Details ................................. 53 
I. Department of State Response ................................................................................................... 54 


                                                           UNCLASSIFIED
                                          UNCLASSIFIED


                                       Executive Summary

        In accordance with the Federal Information Security Management Act of 2002 (FISMA),1
the Office of Inspector General (OIG) contracted with Williams, Adley & Company, LLP
(referred to as “we” in this report), to perform an independent audit of the Department of State
(Department) Information Security Program’s compliance with Federal laws, regulations, and
standards established by FISMA, the Office of Management and Budget (OMB), and the
National Institute of Standards and Technology (NIST). Additionally, the results are designed to
assist OIG in providing responses to FY 2012 Inspector General Federal Information Security
Management Act Reporting Metrics, dated March 6, 2012.

        Overall, we found that the Department had implemented an information security program
and had made progress during FY 2012, but we identified control weaknesses that significantly
impact the information security program. If these control weaknesses were exploited, the
Department could experience security breaches. The FY 2011 FISMA report2 contained 19
recommendations intended to address security deficiencies, and the most significant of these
deficiencies involved the Department’s risk management strategy and security authorizations,
security configuration management, Plans of Action and Milestones (POA&M), and the
continuous monitoring program. Although we observed an increased level of effort to address
the findings we presented in previous years, only four of the 19 recommendations from the prior
audit report were remediated and confirmed during the audit period. The FY 2012 FISMA report
contains 31 recommendations, with many repeat findings identified in the FY 2011 FISMA
audit.

        Collectively, the control weaknesses we identified in this audit, along with the
weaknesses identified by OIG in the report Audit of Department of State Access Controls for
Major Applications,3 represent a significant deficiency, as defined by OMB Memorandum M-12-
20,4 to enterprise-wide security, including the Department’s financial systems. The weakened
security controls could adversely affect the confidentiality, integrity, and availability of
information and information systems. A further compounding factor is that the Department had
not fully taken corrective action to remediate all of the control weaknesses identified in the FY
2011 FISMA report.

       The Department had taken action to resolve the continuous monitoring control
weaknesses identified in the FY 2010 and FY 2011 FISMA reports on the Department’s
information security program by developing a formal continuous monitoring strategy to address
framing and assessing risk, responding to risk, and monitoring risk, all of which are required by
NIST Special Publication (SP) 800-39, “Managing Information Security Risk”, March 2011.
Although the strategy was finalized in August 2012, the control processes supporting the
implementation of the continuous monitoring strategy had not been implemented. In addition,
we found that subnets within the system’s boundary residing on ClassNet were not included in
1
  Pub. L. No. 107-347, title III.
2
  Evaluation of Department of State Information Security Program (AUD/IT-12-14, Nov. 2011).
3
  Audit of Department of State Access Controls for Major Applications (AUD/IT-12-44, Sep. 2012).
4
  OMB Memorandum M-12-20, “FY 2012 Reporting Instructions for the Federal Information Security Management
Act and Agency Privacy Management,” Oct. 2, 2012.
                                               1
                                          UNCLASSIFIED
                                               UNCLASSIFIED

the periodic scans. Further, our review of the Department’s remedial actions taken to resolve
weaknesses identified in the FY 2010 and FY 2011 FISMA reports were not complete, and the
following repeat deficiencies were found:
            The scanning tools do not assess Oracle, the Department’s most common database
             management system, for configuration control weaknesses that could adversely
             impact application access controls.

            Scanning results for routers, firewalls, and Demilitarized Zone servers were not
             available in iPost;5 therefore, the results were not used in risk scoring.

            Security configuration baselines for UNIX had not been developed and published.
             Without effective configuration management controls, sensitive data, systems, and
             hardware are exposed to loss of availability, integrity, and confidentiality.

        Although we found that the Chief Information Officer was taking actions to address the
prior year’s weaknesses with the configuration management controls, the configuration
management process continues to experience deficiencies in installing critical security patches
within required timeframes.

        The Department needs to improve account management processes in Active Directory6
(AD) for OpenNet and ClassNet. From a population of 116,821 OpenNet AD user accounts, we
identified 5,717 accounts that had not been used (never logged on); 529 accounts (user, service,
and mailbox) with passwords set “not to expire;” 19,335 (user, service, and mailbox) accounts
that had been set to not require passwords; and 6,269 users that had not logged into their
accounts between 2005 and 2011. Using a risk-based approach, we identified random instances
of the findings mentioned on the ClassNet AD as well. Upon notification of the findings noted,
the Department implemented remedial actions to address the passwords set “not to expire” for
OpenNet AD user accounts.

        The Department made significant progress in disabling user accounts of terminated
employees in a timely manner. From a population of 198 Foreign Service and Civil Service
terminated employees (Domestic) and 186 Foreign Service and Civil Service terminated
employees (Overseas) during FY 2012, we found only five user accounts that had not been
disabled in a timely manner. In addition, we determined that the five user accounts for the
terminated employees had last log-on dates after the dates the employees had been terminated.
We commend the Department for taking immediate remediation efforts to disable these accounts
and for performing analyses to determine whether any unauthorized activities had been
performed on these accounts to resolve this finding. However, the Department’s user
provisioning process for creating new users’ accounts was not in compliance with the



5
  iPost is a system that provides the ability to monitor outputs of the various network monitoring applications. It
allows key personnel to monitor network, computer, and application resources; check for potential problems; initiate
corrective actions; and gather performance, compliance, and security data for near real-time and historical reporting.
6
  Active Directory is a technology created by Microsoft that provides a variety of network services, such as
identification and authentication, and directory access.
                                                    2
                                               UNCLASSIFIED
                                            UNCLASSIFIED

Department’s Foreign Affairs Manual (FAM).7 We found that Network Access Request Forms
had not been received for four of a sample of 25 new user accounts created during FY 2012.

        The Department’s risk management program for information security needs improvement
at the system level. We noted that system security plans for nine systems residing on the
OpenNet did not comply with NIST SP 800-53, Revision 3, “Recommended Security Controls
for Federal Information Systems and Organizations.” In addition, the security authorization
process was not properly managed on the Department’s primary general support systems for
unclassified systems. These deficiencies weaken the Department’s risk management framework
and its ability to assess, respond to, and monitor information security risk.

        The Department needs to improve its process and procedures for role-based security-
related training. The Department was not tracking and documenting significant security
responsibilities (SSR) training attendance, and it did not require role-based security-related
training to be completed before authorizing access to the network. From a sample of 46 new
employees hired during FY 2012 with SSR (that is, Chief of Mission, Deputy Assistant
Secretary, Information Management Specialist, Information Technology Specialist, Office
Director, and Security Engineering Officer), we found that all 46 employees had not taken the
recommended8 role-based security-related training course in the timeframe (that is, 6 months) as
recommended in the Information Assurance Training Plan.

       The Department’s POA&M process had not been fully and effectively implemented, and
the program remained noncompliant with OMB and Committee on National Security Systems
requirements.9 Although in August, 2012 the Department implemented a process to centrally
manage, address, and resolve security weaknesses identified on systems residing on the
ClassNet, the Department’s bureaus had not implemented effective corrective actions to address
the POA&M control weaknesses within systems residing on the OpenNet in a timely manner.

       Remote access controls can be improved. The Bureau of Information Resource
Management, Office of Information Assurance (IRM/IA), has a process in place to authorize
remote access administration using Remote Desktop Protocol via Global OpenNet (GO) for
administrators, which contradicts 12 FAM 680, which prohibits the use of remote administration.
We requested a sample of Remedy tickets to test authorization requests for key fobs/tokens, and
Remedy tickets evidencing service requests could not be located for 19 of 25 new employees.

       The Department’s Continuity of Operations Program was not operating effectively and
was not documented in accordance with NIST SP 800-34, Revision 1,10 and Federal Continuity


7
  12 FAM 622.1-2(b).
8
  The Department’s Information Assurance Training Plan states: “This training is recommended upon title
designation; individuals should complete training within 6 months of assuming the position. Training is
recommended again once every 2 years for refresher purposes.”
9
  OMB Memorandum M-02-01, “Guidance for Preparing and Submitting Security Plans of Action and Milestones,”
Oct. 2001; OMB Memorandum M-04-25, “FY 2004 Reporting Instructions for the Federal Information Security
Management Act,” Aug. 2004; and “Committee on National Security Systems Policy No.22,” Jan. 2012.
10
   NIST Special Publication 800-34, Rev. 1, “Contingency Planning Guide for Federal Information Systems,” May
2010.
                                                 3
                                            UNCLASSIFIED
                                             UNCLASSIFIED

Directive 2.11 The Department is required by NIST to have a collection of plans to prepare for
response, continuity, recovery, and resumption of mission/business processes and information
systems. Although contingency plans had been developed at the system level, the bureau level,
and the national level, the Continuity of Operations Plan (COOP) for communications and the
infrastructure had not been documented at the Department level (entity). In addition, an entity-
wide Business Impact Analysis (BIA) had not been documented to facilitate the coordination of
the recovery prioritizations of critical mission/business processes and services in the event of a
disruption.

        The Department had not implemented an effective oversight program of its contractor
hosted systems and extensions, specifically, government extensions. Not all government
extensions (older sites) had been documented (that is, an OpenNet extension that exists at the
Broadcasting Board of Governors and authorization memoranda were not available or did not
exist).

       Information security was not fully integrated into the Department’s Capital Planning and
Investment Control process. IRM senior management needs to strengthen its oversight
process of information technology (IT) investments. Our review of the business cases and OMB
Exhibits 30012 for the new enterprise-level IT investments (Application Services, Data Center
Services/Hosting, and Deployment, Maintenance & Refresh) found that IRM exhibits were not
complete because they were newly established Exhibits 300 this fiscal year. For example, we
found that Investment level Acquisition Plan, Earned Value, Integrated Program Team Charter,
Investment Charter, Project Charters (as appropriate), and Risk Management Plan were
incomplete within electronic Capital Planning Investment Control (eCPIC).13

        This report contains 31 recommendations to address security deficiencies identified in 14
reportable areas, and we believe the most significant security deficiencies are the findings related
to risk management strategy and security authorizations (Finding A), security configuration
management (Finding B), POA&Ms (Finding D), and the continuous monitoring program
(Finding G).

       In its November 7, 2012, response to the draft report (see Appendix I), the Department
concurred with 24 recommendations, partially concurred with two recommendations, and did not
concur with five recommendations.14 Based on the response, OIG considers 27
recommendations resolved, pending further action, and four (4) recommendations unresolved.
Based on the response OIG added a new recommendation and revised three other
recommendations. This addition and revisions are noted in management’s responses and OIG’s
analyses, which are presented after each recommendation.



11
   Federal Continuity Directive 2, “Federal Executive Branch Mission Essential Function and Primary Mission
Essential Function Identification and Submission Process,” Feb. 2008.
12
   OMB Circular No A-11, Exhibit 300, “Capital Asset Plan and Business Case Summary.”
13
   The Department of State’s electronic Capital Planning Investment Control (eCPIC) portfolio management tool
which is used for managing IT investments.
14
   In their response, management requested to divide the former Recommendation 15 into two recommendations.
After the change, the final report now contains 31 recommendations.
                                                  4
                                             UNCLASSIFIED
                                           UNCLASSIFIED

        We reviewed the Department’s remedial actions taken to address the reported
information security program control weaknesses identified in the FY 2011 FISMA report.15 The
status of each recommendation from the FY 2011 FISMA report is in Appendix B of this report.

       Since FY 2011, the Department has taken the following actions to improve management
controls:

         Developed automated process for the Foreign Service Institute’s Cyber security tracking
          system to update the user’s AD account expiration date immediately after the student
          completes the Cyber Security Awareness (PS800) training. This AD update extends the
          user’s account expiration date by 368 days. If the user fails to retake the test in 368 days,
          the user’s account expires and the user cannot access the system without manual
          intervention by an administrator.

         Developed System Security Plan templates that comply with NIST Special Publication
          800-53, Revision 3.

         Developed and implemented procedures to distribute quarterly POA&M Grade
          Memorandums to the bureaus’ and offices’ senior management (executive director) as
          required by OMB Memorandum M-04-25.16

         Revised the IRM/IA Contingency Plan Test Review Checklist to address the following
          items:

              o   Recovery and damage assessment procedures
              o   Alternate recovery site details
              o   Back-up procedures
              o   Back-up test results for moderate- and high-impact systems

         Revised the Contingency Plan Policy to include an organization-defined frequency for
          backup testing.

         Revised the FAM to require system owners to report to IRM/IA on the test results and
          updates to the contingency plans.

         Established procedures to identify the total number of contractors who have access to the
          Department’s systems.

         Developed procedures that ensure that the IRM’s Directorate of Business Management
          and Planning track all obligations and expenditures for IT security investments.

         Developed procedures to provide a summary of non-major investments that make up the
          IT infrastructure and other major investments.


15
     AUD/IT-12-14, Nov. 2011.
16
     OMB Memorandum M-04-25, Aug. 2004.
                                                5
                                           UNCLASSIFIED
                                             UNCLASSIFIED


         Developed procedures to include the Unique Project Identifier in the Department’s
          POA&M database.

                                              Background
        Through FISMA, Congress recognized the importance of information security to the
economic and national security interests of the United States. FISMA requires each Federal
agency to develop, document, and implement an agency-wide program to provide information
security for the information systems that support the operations and assets of the agency,
including information and information systems provided or managed by another agency,
contractor, or source. FISMA provides a comprehensive framework for establishing and
ensuring the effectiveness of management, operational, and technical controls over IT that
supports Federal operations and assets, and it provides a mechanism for improved oversight of
Federal agency information security programs.

        FISMA assigns specific responsibilities to Federal agencies, NIST, OMB, and the
Department of Homeland Security (DHS) in order to strengthen information system security. In
particular, FISMA requires the head of each agency to implement policies and procedures to cost
effectively reduce IT security risks to an acceptable level. To ensure the adequacy and
effectiveness of information system controls, FISMA requires agency program officials, chief
information officers, chief information security officers, senior agency officials for privacy, and
inspectors general to conduct annual reviews of the agency’s information security program and
report the results to DHS.

        On an annual basis, OMB, in coordination with DHS, provides guidance with reporting
categories and questions for meeting the current year’s reporting requirements.17 OMB uses this
data to assist in its oversight responsibilities and to prepare its annual report to Congress on
agency compliance with FISMA.

                                               Objective
       The objective of this audit was to perform an independent evaluation of the Department’s
Information Security Program and practices for FY 2012 and included testing the effectiveness
of security controls for a subset of systems as required.

                                         Results of Audit
        Overall, we found that the Department had implemented an information security
program, but we identified control weaknesses that significantly impacted the Information
Security Program. If these control weaknesses were exploited, the Department could experience
security breaches. Collectively, the control weaknesses we identified in this audit, along with the
weaknesses identified by OIG in the report Audit of Department of State Access Controls for
Major Applications,18 represent a significant deficiency, as defined in OMB Memorandum M-


17
     OMB Memorandum M-12-20, Oct. 2, 2012.
18
     AUD/IT-12-44, Sep. 2012.
                                                  6
                                             UNCLASSIFIED
                                           UNCLASSIFIED

12-20,19 to enterprise-wide security, including the Department’s financial system. The weakened
security controls could adversely affect the confidentiality, integrity, and availability of
information and information systems. A further compounding factor is that the Department had
not taken corrective action to remediate all of the control weaknesses identified in the FY 2010
and FY 2011 FISMA reports. To improve the Information Security Program and to bring the
program into compliance with FISMA, OMB, and NIST requirements, the Department needs to
address the control weaknesses described.

Finding A. Continuous Monitoring Program Needs To Be Improved
        Although the Information Security Steering Committee published, in August 2012, a
continuous monitoring and risk management framework strategy that addressed framing risk,
assessing risk, responding to risk, and monitoring risk, the control processes supporting the
implementation of the continuous monitoring strategy had not been fully implemented. In
addition, the Department’s remedial actions taken to resolve weaknesses identified in the FY
2010 and FY 2011 FISMA reports were not complete. Further, not all Windows servers (seven
of the eight systems on ClassNet selected for testing) were reporting security posture information
in iPost.
        The continuous monitoring and risk management framework strategy did not address
how the Department planned to monitor the security posture of the components described, as the
components were not configured to report information into iPost (primary continuous monitoring
tool used by the Department). The components are as follows:
           Oracle (the Department’s most common database system)
           UNIX security configurations
           Network components (for example, routers and switches)
           Demilitarized Zone servers
        The repeat conditions at the system scanning level occurred because the Bureau of
Diplomatic Security (DS) and IRM were still working on a solution; DS and IRM agreed that the
conditions still existed. The lack of an enterprise-wide continuous monitoring strategy and
security weaknesses of relevant IT components, such as databases and network devices, were not
included in iPost.

       NIST SP 800-3720 and NIST SP 800-53 CA-721 require that an organization-defined
continuous monitoring strategy be implemented.

        The causes for the conditions were as follows: (1) the Department had not finalized an
enterprise-wide continuous monitoring program strategy to assist system owners in evaluating
various control deficiencies and (2) Diplomatic Security/Security Infrastructure Directorate


19
   OMB Memorandum M-12-20, Oct. 2, 2012.
20
   NIST SP 800-37, “Guide for Applying the Risk Management Framework to Federal Information Systems,” Feb.
2010.
21
   NIST SP 800-53, Rev. 3, CA-7, “Continuous Monitoring.”
                                                7
                                           UNCLASSIFIED
                                                  UNCLASSIFIED

Office of Computer Security (DS/SI/CS) scheduled periodic vulnerability and compliance scans
by subnet but did not include all of the subnets in the Foundstone22 configuration.

        Not having a robust continuous monitoring program prevents the Department from
understanding the security state of the information system over time. It also prevents the
Department from effectively monitoring a highly dynamic network environment with changing
threats, vulnerabilities, technologies, and missions/business functions.
           Recommendation 1. We recommend that the Information Security Steering Committee
           finalize and implement an enterprise-wide continuous monitoring and risk management
           framework strategy that addresses framing risk, assessing risk, responding to risk, and
           monitoring risk.

           Management Response: The Department concurred with the recommendation, stating
           that it had provided the OIG with a document “specific to” Finding A in the reports. The
           Department further stated that this document would be presented to the “Information
           Security Steering Committee for review and approval” within the next 6 months.

           OIG Analysis: OIG considers the recommendation resolved. The recommendation can
           be closed when OIG reviews and approves documentation showing that the Department
           has developed and implemented a continuous monitoring strategy.

           Recommendation 2. We recommend the Chief Information Officer, in coordination
           with the Bureau of Diplomatic Security and the Bureau of Information Resource
           Management, include, under its continuous monitoring program, an effective method to
           monitor the security posture for non-Windows operating systems, databases, firewalls,
           routers, and switches.

           Management Response: The Department concurred with the recommendation, stating
           that it “will hold discussions and develop documentation identifying methods for
           monitoring the security posture for non-Windows operating systems, databases, firewalls,
           routers, and switches.”

           OIG Analysis: OIG considers the recommendation resolved. The recommendation can
           be closed when OIG reviews and approves documentation showing methods to monitor
           the security posture for non-Windows operating systems, databases, firewalls, routers,
           and switches.

Finding B. End-to-End Configuration Management Process Needs
Improvement
       Although the Department had taken actions to address the prior year noted weaknesses
with the configuration management controls, the weakness within configuration management


22
     A tool created by McAfee that performs vulnerability scans and generates reports with the results.
                                                       8
                                                  UNCLASSIFIED
                                           UNCLASSIFIED

process still existed. We identified the following deficiencies as a result of vulnerability
scanning analysis on selected systems (see Appendix D):
       1. The bureaus were not installing critical security patches in a timely manner on 14 of 15
          systems residing on OpenNet, including the general support system selected for testing.
          (Details are in Appendix C.)

       2. Systems were configured to allow unauthorized users access to system resources via
          anonymous logins and passwords, default credentials, and unsecured access points.
          (Details are in Appendix C.)

        The FAM23 requires the installation of critical patches on workstations and servers at an
installation rate of 100 percent and 90 percent for non-critical patches. Also, the FAM24 requires
that unique user accounts be used and passwords be changed

        Responsibility for the implementation of configuration management controls for the
systems, operating systems, databases, and network is decentralized; it is fragmented among the
various system owners, database administrators, and network administrators. Additionally, the
Information System Security Officers had not established and implemented a reporting process
to verify that the responsible groups had implemented the security configuration patches and
software updates identified by DS and IRM. To correct these weaknesses, IRM/Enterprise
Network Management, was implementing the end-to-end configuration management initiative,
which includes a standard operating environment to support development of strong configuration
management plans for the computing environments commonly used throughout the Department.

        Configuration management controls allow agencies to improve system performance,
decrease operating costs, increase security, and ensure public confidence in the confidentiality,
integrity, and availability of Government information. Without effective configuration
management controls, the Department increases the risks that Department sensitive data,
systems, and hardware will be exposed to loss of integrity and confidentiality. Additionally, the
Department increases the risks that known security weaknesses will be exploited by individuals
to perform unauthorized activities. The Department’s decentralized patch management and
configuration management processes and procedures do not ensure that all system and operating
system security residing on the network will be properly patched to reduce the security exposure
to other bureaus and system owners in a timely manner.

           Recommendation 3. We recommend that the Chief Information Officer, in coordination
           with the Bureau of Information Resource Management, Enterprise Network
           Management, and the Bureau of Diplomatic Security, finalize and implement the Cyber
           Security Architecture draft target architecture and initiative for end-to-end configuration
           management.

           Management Response: The Department stated that it “believes . . . the current
           configuration management controls for the Standard Operating Environment (SOE)
           platform have been fully documented and are operating effectively and efficiently” and
23
     5 FAM 1067.3 (b).
24
     12 FAM 622.1-3 (a).
                                                9
                                           UNCLASSIFIED
                                                UNCLASSIFIED

           that “further documentation of key components may be useful,” concluding that “such
           actions will be taken to meet the intent of this recommendation.”

           OIG Analysis: OIG considers the recommendation resolved. The recommendation can
           be closed when OIG reviews and approves documentation showing that the Cyber
           Security Architecture has been finalized and implemented.

           Recommendation 4. We recommend that the Chief Information Officer, in coordination
           with the Bureau of Consular Affairs, the Bureau of Administration, the Bureau of
           Resource Management, the Office of Medical Services, the Bureau of Overseas Buildings
           Operations, the Bureau of International Narcotics and Law Enforcement Affairs, the
           Foreign Service Institute, the Bureau of Diplomatic Security, the Bureau of International
           Information Program, and the Bureau of Information Resource Management, continue to
           improve their processes to patch servers within their system boundary in a timely manner.

           Management Response: The Department concurred with the recommendation, stating
           that it “is continually improving processes to patch servers within their system boundary
           in a timely manner” and that it will generate updates “periodically via email or cable to
           ensure that there is proper notification within the Department.”

           OIG Analysis: OIG considers the recommendation resolved. The recommendation can
           be closed when OIG reviews and approves documentation showing how the Department
           is improving its processes to patch servers in a timely manner.

Finding C. Standard Configuration Baselines for UNIX Need To Be
Developed
       Although the Security Configuration Management Branch (SCM) had developed and
implemented security configuration baselines for Windows operating systems, database, network
devices, and Web applications, SCM had not developed and published the security configuration
baselines for UNIX.

       The FAM25 states that Diplomatic Security/Security Infrastructure/Office of Computer
Security (DS/SI/CS) is responsible for the development and updates of security configuration
standards of specific IT products that are used throughout the Department.

       Because of the limited number of UNIX servers in use, SCM had not assigned the
resources needed to develop the security configuration baselines for UNIX.

        Configuration management controls allow agencies to improve system performance,
decrease operating costs, increase security, and ensure public confidence in the confidentiality,
integrity, and availability of Government information. Without effective configuration
management controls, the Department increases the risk that Department sensitive data, systems,
and hardware are exposed to loss of availability, integrity, and confidentiality.

25
     1 FAM 262.6-2(1)(2)(3)(6)(7)(8)(9)(17)(18)(20) and (21).
                                                     10
                                                UNCLASSIFIED
                                                 UNCLASSIFIED

           Recommendation 5. We recommend that the Security Configuration Management
           Branch develop and publish the security configuration baselines for UNIX in accordance
           with the Foreign Affairs Manual.

           Management Response: The Department concurred with the recommendation, stating
           that it “will review, develop and publish the security configuration baselines for UNIX,
           as needed, in accordance with 12 FAM.”

           OIG Analysis: OIG considers the recommendation resolved. The recommendation can
           be closed when OIG reviews and approves the security configuration baselines for UNIX
           in accordance with the FAM.

Finding D. Periodic Vulnerability and Compliance Scans Process and
Capabilities Need Improvement
       Although the Department had developed and implemented periodic vulnerability and
compliance scans using Foundstone Enterprise and Policy Auditor26 on Windows servers to
address prior audit recommendations, we determined that the following weaknesses still existed:

               Capabilities to periodically scan the following components for compliance and
                vulnerabilities were not implemented:

                    o   Oracle databases
                    o   Applications
                    o   Network devices (for example, routers and switches)
                    o   UNIX operating systems
                    o   Demilitarized Zone servers

               Foundstone is currently configured to scan by subnet; however, during the
                independent vulnerability scan, we determined that seven of eight sampled systems
                on ClassNet (including the ClassNet general support system) had subnets within the
                system’s boundary that were not included in the periodic scans. DS/SI/CS had taken
                action to include the identified subnets in the Foundstone configuration for periodic
                scanning.

        The FAM27 states that DS/SI/CS is responsible for conducting continuous and directed
network- or application-specific vulnerability assessment testing, independent penetration
testing, and intelligence monitoring to identify specific risks to those systems and develops risk
mitigation strategies to protect the Department’s IT infrastructure.

       Based on interviews with key personnel and review of documents supporting the
processes and procedures, we identified the following causes for the weaknesses:


26
     A tool created by McAfee that performs compliance scans and generates reports with the results.
27
     1 FAM 262.6-2(20).
                                                      11
                                                 UNCLASSIFIED
                                        UNCLASSIFIED


          Vulnerability and Compliance Scanning Tools had not been implemented to perform
           periodic vulnerability and compliance scans on Oracle databases, Applications,
           Network devices (for example, routers and switches), and UNIX operating systems.
          Discovery scans were not performed on a periodic basis to identity new components
           added to the network.
          DS did not have the administrative credentials needed for Demilitarized Zone servers
           to perform periodic scanning.

        Configuration management controls allow the Department to improve system
performance, decrease operating costs, increase security, and ensure public confidence in the
confidentiality, integrity, and availability of the Department’s information. Without effective
configuration management controls, the Department increases the risks that Department sensitive
data, systems, and hardware will be exposed to loss of availability, integrity, and confidentiality.

       Recommendation 6. We recommend that the Chief Information Officer, in coordination
       with the Bureau of Diplomatic Security/Security Infrastructure/Office of Computer
       Security, research, develop, and implement capabilities (for example, scanning tools) to
       perform periodic network vulnerability and compliance scans on Oracle databases,
       applications, network devices (for example, routers and switches), UNIX operating
       systems, and Demilitarized Zone servers.

       Management Response: The Department concurred with the recommendation, stating
       that IRM/IA and DS had “previously identified these areas as requiring tools”; that the
       process of identifying and acquiring the appropriate tools “will continue”; and that once
       the tools have been acquired, they “will be incorporated into the Department’s scanning
       program.”

       OIG Analysis: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that the vulnerability
       and compliance tools specified have been incorporated into the Department’s scanning
       program.

       Recommendation 7. We recommend that the Chief Information Officer, in coordination
       with Diplomatic Security/Security Infrastructure/Office of Computer Security, update the
       Foundstone configuration to include subnets and Demilitarized Zone servers that were
       not included in the Foundstone configuration for periodic scanning and obtain the
       administrative credentials needed to perform the scans and periodically perform
       discovery scanning to identify new components added to the network.

       Management Response: The Department concurred with the recommendation, stating
       that IRM/IA and DS had “identified these areas for improvement in the current scanning
       capability” and were “working collaboratively to establish this capability.”

       OIG Analysis: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that the subnets and

                                             12
                                        UNCLASSIFIED
                                         UNCLASSIFIED

        Demilitarized Zone servers are included in the Foundstone configuration for periodic
        scanning.

Finding E. Account Management Processes in Active Directory Need To Be
Improved
       The Department needs to improve account management processes in AD for OpenNet
and ClassNet. As first identified in the FY 2010 audit, OIG reported deficiencies in account
management, and we found that account management deficiencies still existed within AD for
OpenNet and ClassNet.

        From a population of 116,821 active OpenNet AD user accounts (see Appendix D), we
identified the following deficiencies:
            5,717 accounts created from 2002 to 2011 had not been used (never logged on). The
             FAM28 requires user privileges to be reviewed annually to verify that privileges are
             still appropriate.

            6,269 active user accounts had not logged on within the last 5 months. These user
             accounts had last logon dates between 2005 and 2011. The FAM29 requires user
             privileges to be reviewed annually to verify that privileges are still appropriate.

      From a population of 121,702 active OpenNet AD accounts, including users, service, and
mailbox accounts, we identified the following deficiencies:

            529 accounts had passwords set not to expire. The FAM30 requires passwords to be
             changed at least every 60 days.

            19,335 accounts had been set to not require passwords. The FAM31 requires the
             removal of non-permanent (that is, visitor and training) user accounts and passwords.

        AD for ClassNet had similar deficiencies. Using a risk-based audit approach, we
identified instances of the same deficiencies on ClassNet as on the OpenNet AD; therefore, we
did not perform detailed analyses on the ClassNet AD.

       The Department uses a decentralized and fragmented process to manage AD.
Specifically, each bureau and post is responsible for user account management (adding new users
and removing or modifying existing users’ accounts). System Administrators identified a bit flag
within AD that was enabled to permit setting certain accounts to “not require a password.”

       Bureaus and posts that choose not to comply with the Department’s security standards
jeopardize the safety and security of the entire network. Inadequate account and identity

28
   12 FAM 622.1-3(i).
29
   Ibid.
30
   12 FAM 622.1-3(j).
31
   12 FAM 622.1-3 (e) and (i).
                                              13
                                         UNCLASSIFIED
                                      UNCLASSIFIED

management controls increase the risk that temporary and active accounts may used by
unauthorized Department and contractor personnel to perform unauthorized activities.
       Recommendation 8. We recommend that the Chief Information Officer, in coordination
       with respective System Administrators from all bureaus, take immediate action to remove
       or lock accounts that do not require a password.

       Management Response: The Department concurred with the part of the
       recommendation for accounts that do not require a password, stating that IRM receives
       automatic [AD] “alerts when any account is created that does not require a password,”
       which “results in an immediate intervening response by IRM/IA.”

       The Department did not concur with the part of the recommendation for accounts that
       have not been used for 90 days, stating that this is a “separate issue” and recommended
       that this issue “be addressed” in Recommendation 9.

       OIG Analysis: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that accounts that do
       not require a password are removed or locked.

       Based on the Department’s response, Recommendation 8 has been modified to remove
       reference to accounts that have not been used for 90 days.

       Recommendation 9. We recommend that the Chief Information Officer, in coordination
       with the Bureau of Diplomatic Security, revise the Foreign Affairs Manual to provide
       authority to the Chief Information Officer to review and identify accounts not used within
       the past 90 days and to de-activate such accounts and require the bureaus and posts to
       recertify the user account prior to re-activating the account.

       Management Response: The Department concurred with the recommendation, stating it
       “has initiated actions in coordination with [DS] to revise the 12 FAM to include language
       that provides authority to the [CIO] to review and identify accounts not used within the
       past 90 days and to de-activate such accounts and require the bureaus and posts to
       recertify the user account prior to re-activating the account.”

       OIG Analysis: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that 12 FAM has
       been revised and that the accounts not used within the past 90 days have been de-
       activated and recertifed by bureaus and posts.

       Recommendation 10. We recommend that the Chief Information Officer, in
       coordination with bureau and post Data Center Managers and System Managers, require
       the posts and bureaus to configure all accounts to expire passwords in accordance with
       the Foreign Affairs Manual (that is, passwords must be changed every 60 days).

       Management Response: The Department did not concur with the recommendation and
       “suggest[ed] that the recommendation be closed. The Department stated that its “actions

                                           14
                                      UNCLASSIFIED
                                             UNCLASSIFIED

        are compliant with the applicable FAM” in that it “requires that user accounts be
        configured to require an account password.”

        OIG Analysis: OIG considers the recommendation unresolved and open because there
        are accounts with passwords on the network that are set to not expire. However, OIG
        modified the recommendation to require that passwords to be changed every 60 days in
        accordance with the FAM. The recommendation can be closed when OIG reviews and
        approves documentation showing that the Department has configured its accounts so that
        passwords are changed every 60 days.

Finding F. The User Provisioning Process for Creating, Modifying, and
Disabling Users’ Accounts Requires Significant Improvement
       The Department had made significant progress in improving the user provisioning
process; however, we found the following:
            From a population of 198 Foreign Service and Civil Service terminated employees
             (Domestic) and 186 Foreign Service and Civil Service terminated employees
             (Overseas), we identified user accounts for six terminated employees in the OpenNet
             AD accounts that were not disabled and found that the user accounts had last logon
             dates after the date of the employees’ termination. Upon notification, the Department
             disabled and removed these accounts from AD and conducted analyses to determine
             whether any unauthorized activities had been performed on these accounts.

            Of the 25 samples selected for new user testing, we determined the following:

                 o Four new user account request forms could not be located:
                       None of three new users in Kabul, Afghanistan.
                       One of 11 new users at the Foreign Service Institute.

                 o Expiration dates were not set for either of the two users in the Office of the
                   Secretary.
        The FAM32 requires the data center manager and the system manager, in conjunction
with the Information System Security Officer, to revoke user access privileges for terminated or
transferred personnel. Personnel officers must notify the data center manager, the system
manager, and the Information System Security Officer immediately of any employee or
contractor with access to the system whose employment is being terminated for any reason. The
FAM33 requires supervisors to complete a system access request form for each staff member who
requires automated information system access. The Department’s procedure34 states that
expiration dates need to be set in AD to ensure that accounts lock after one year if the users do
not complete the annual Cyber Security Awareness Training.

32
   12 FAM 621.3-3.
33
   12 FAM 622.1-2(b).
34
   Department of State Global Address List (GAL) and Active Directory Standardization Guide, dated Feb. 24,
2012.
                                                  15
                                             UNCLASSIFIED
                                        UNCLASSIFIED

         The user provisioning weaknesses occurred because the bureaus were not disabling
accounts in a timely manner. Furthermore, in lieu of the Department of State Logon Request
form, users in Afghanistan send emails via the Office of Orientation and In Processing (OIP)
directly to IRM/Operations/Customer Service Office/Desktop Support Division IT Mart to create
accounts for users in Afghanistan. Although all OIP Afghanistan computer account requests are
supposed to be entered into SharePoint by Program Assistants, OIP could not locate the emails
initiating the request for these accounts. The Foreign Service Institute could not locate the new
user access request form for the new user selected for testing. Because of the nature of the work
performed by members in the Office of the Secretary, AD accounts are not set to expire.
        Ineffective user provisioning program procedures and practices increase the
Department’s risk of unauthorized access, use, disclosure, disruption, modification, or
destruction of information. These control weaknesses increase the potential for unauthorized
activities to occur without being detected timely and to adversely affect the confidentiality,
integrity, and availability of the data on the network.

       Recommendation 11. We recommend that the Chief Information Officer, in
       coordination with Bureau of Diplomatic Security, determine whether unauthorized access
       was performed using the terminated employees’ credentials and whether Department
       information had been compromised.

       Management Response: The Department concurred with the recommendation, stating
       that “corrective actions have been taken” by IRM “to disable and remove the accounts”
       from AD and that analyses are conducted to determine where “any unauthorized activities
       had been performed on these accounts.”

       OIG Analysis: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves the documentation showing that the accounts
       have been disabled and removed and an analysis of unauthorized activity has been
       performed.

       Recommendation 12. We recommend that the Chief Information Officer, in
       coordination with Information System Security Officers and system administrators of the
       Bureau of East Asian and Pacific Affairs, the Bureau of Near Eastern Affairs, the
       Washington District of Columbia, and the Bureau of Western Hemisphere Affairs,
       improve the process of disabling terminated employees user accounts in a timely manner.

       Management Response: The Department concurred with the recommendation, stating
       that it “will initiate a policy that requires periodic review ensuring that” user accounts for
       employees who have been terminated “are disabled in a timely manner.”

       OIG Analysis: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that user accounts of
       terminated employees have been disabled in a timely manner.

       Recommendation 13. We recommend that the Chief Information Officer, in
       coordination with the Orientation and In-Processing Center, enforce the use of the
       Department of State Logon Request form for new users in Afghanistan.
                                               16
                                       UNCLASSIFIED
                                UNCLASSIFIED

Management Response: The Department concurred with the recommendation, stating
that “a process will be developed and implemented ensuring that new users in overseas
locations complete the Department of State Logon Request form.”

OIG Analysis: OIG considers the recommendation resolved. The recommendation can
be closed when OIG reviews and approves documentation showing that the Department
has developed and implemented a process ensuring that new users in overseas locations
complete the form.

Recommendation 14. We recommend that the Chief Information Officer, in
coordination with Information Resource Management/Operations Directorate/Computer
Security Office/Desktop Support Division, update the Information Technology Mart
Standard Operating Procedures to reflect the updated account management procedures for
new users in Afghanistan.

Management Response: The Department concurred with the recommendation, stating
that it “will develop and update procedures on account management for new users in
overseas locations.”

OIG Analysis: OIG considers the recommendation resolved. The recommendation can
be closed when OIG reviews and approves documentation showing the procedures on
account management for new users in overseas locations.

Recommendation 15. We recommend that the Chief Information Officer, in
coordination with Office of the Secretary, develop and finalize exemptions/waivers to
allow for the deviation from the standard of setting expiration dates for Office of the
Secretary user accounts in Active Directory.

Management Response: The Department generally did not concur with the
recommendation “as stated” and suggested that the recommendation in the draft report
“be revised to separately address” two issues.

Based on the response, OIG revised Recommendation 15 in the draft report to become
Recommendations 15 and 16 in this final report.

The Department concurred with the new recommendation, stating that the Office of the
Secretary “already has a procedure in place to set expiration dates manually for user
accounts in [AD], a waiver to the automatic expiration policy will allow [the Office of the
Secretary] to continue monitoring the accounts and modifying them manually to ensure
no interruption in service and compliance with the relevant portions of the DS Security
policy.”

OIG Analysis: OIG considers the recommendation resolved. The recommendation can
be closed when OIG reviews and approves the final policy on exemptions/waivers from
the standard of setting expiration dates for Office of the Secretary user accounts in AD.



                                     17
                                UNCLASSIFIED
                                             UNCLASSIFIED

          Recommendation 16. We recommend that the Chief Information Officer, in
          coordination with Office of the Secretary, develop and implement a process that ensures
          that Office of the Secretary users complete the required Cyber Security Awareness
          Training on an annual basis.

          Management Response: The Department concurred with the new Recommendation 16
          in this report, stating that the Office of the Secretary “will ensure” all employees receive
          cyber security awareness training.

          OIG Analysis: OIG considers the recommendation resolved. The recommendation can
          be closed when OIG reviews and approved documentation showing that Office of the
          Secretary users are completing the required Cyber Security Awareness Training annually.

Finding G. Risk Management Framework Needs Improvement
         Although the Department had made progress to address prior year findings, weaknesses
still existed within the risk management process, particularly the security controls assessments.
The following discrepancies were noted with the controls:
             System security plans did not comply with NIST SP 800-53, Revision 3, for nine of
              16 systems selected for testing residing on the OpenNet. (Details are in Appendix F.)

             The OpenNet general support system authorization to operate (ATO) expired in
              August 2010, and the security controls assessment will not be completed until FY
              2013.

        OMB35 states that agencies’ legacy information systems are expected to be in compliance
with NIST standards and guidelines within a year of the publication date unless otherwise
directed by OMB. Also, OMB Circular A-130, Appendix III, requires that general support and
major systems’ security controls be reviewed at least every 3 years or when a major change
occurs.

        The Department did not publish the updated Certification & Accreditation (C&A) Toolkit
and required templates until December 2011, even though NIST SP 800-53, Revision 3, was
finalized in August 2009. The updates addressed the NIST SP 800-53, Revision 3, requirements.
Also, in February 2010, NIST SP 800-37, Revision 1, was released and introduced changes to
the security authorization process. As such, the Chief Information Officer extended the OpenNet
ATO through August 2011 in an effort to develop continuous security authorization by
leveraging iPost capabilities to increase security while reducing costs. The ATO was then
extended twice after August 2011, from March 2012 to December 2012. The decision to
conduct the full security authorization was not made until February 2012.

       Systems where assessments had not performed in accordance with NIST SP 800-53,
Revision 3, might not possess the security controls needed to adequately mitigate the risk
incurred by the use of information and information systems in the execution of organizational

35
     OMB Memorandum M-12-20, Oct. 2, 2012.
                                                  18
                                             UNCLASSIFIED
                                        UNCLASSIFIED

missions and business functions. Systems residing on OpenNet inherit controls from the
OpenNet general support system. Since the OpenNet ATO had expired, Department officials
might not have the desired or required level of assurance that the inherited security controls, as
implemented, were effective.

       Recommendation 17. We recommend that the Chief Information Office, in coordination
       with Information Resource Management/Information Assurance, continue to review the
       security authorization and annual assessments to ensure that Information System Owner,
       Information System Security Officer, and Security Control Assessor for all Federal
       Information Security Management Act reportable systems use the published Certification
       & Accreditation Toolkit templates during the annual controls assessment to assess the
       required National Institute of Standards and Technology Special Publication 800-53,
       Revision 3, “Recommended Security Controls for Federal Information Systems and
       Organizations,” controls applicable and update the System Security Plan accordingly.

       Management Response: The Department did not concur with the recommendation,
       stating that it “asserts that the referenced practices and controls are being fully
       implemented.”

       OIG Analysis: OIG considers the recommendation unresolved and open. OIG concurs
       with the Department that the Department has implemented practices to ensure
       compliance with NIST SP 800-53, Revision 3. However, the Department needs to make
       progress regarding the security authorization process, since OIG identified nine of 25
       system security plans that did not comply with the publication and the OpenNet general
       support system authorization to operate (ATO) expired in August 2010.

       This recommendation can be closed when OIG reviews and approves documentation
       showing the Department is complying with NIST SP 800-53, Revision 3, as it pertains to
       the applicable controls.

       Recommendation 18. We recommend that the Chief Information Officer continue to
       track the progress of the full authorization of the OpenNet general support system.

       Management Response: The Department concurred with the recommendation, stating
       that the Chief Information Officer, IRM/IA, and IRM’s Office of Operations are all
       “expending significant time and resources to ensure [that] progress of the full
       authorization of the OpenNet general support system is occurring.” The Department
       further stated, “Ongoing progress reports are submitted to the Chief Information Officer.”

       OIG Analysis: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing the full authorization
       of the OpenNet general support system.




                                             19
                                        UNCLASSIFIED
                                        UNCLASSIFIED


Finding H. Information Security Training Requirements Were Not Enforced

        Although DS/SI/CS had made progress with the Information Security Training Program
in FY 2012 to resolve the deficiencies identified in FY 2011, security control weaknesses still
existed.

        We selected a sample of six SSRs identified in the Information Assurance Training Plan
and identified 46 new employees who were assigned those responsibilities. We found that all 46
of the new employees with SSR had not taken the Department’s recommended role-based
security-related training courses as of May 22, 2012.

        In addition, the FY 2011 evaluation found that the Department had established controls to
identify SSR positions and required role-based security-related training in the Information
Assurance Training Plan; however, the Department was not tracking and documenting SSR
training attendance.

       IRM/IA and DS/SI/CS rely on employees to track their own role-based training. The
Department had not established procedures to track and document compliance with SSR training
attendance. Also, the IA Training Plan did not mandate when role-based training was to be
completed.

        The Information Assurance Training Plan recommends that personnel with significant
security responsibilities attend their designated role-based security-related courses within
6 months of title designation and every 3 years thereafter for refresher training. Also, NIST SP
800-53, Revision 3, requires the organization to provide role-based security-related training (i)
before authorizing access to the system or performing assigned duties, (ii) when required by
system changes, and (iii) on a periodic basis (defined by the organization) thereafter.

        Employees and contractors who are in positions that are responsible for the security of
the organization’s information and information systems need to be properly trained on how to
protect classified information. Without proper training, these employees and contractors could
create a risk for the Department because they may cause vulnerabilities or security breaches,
which increases the risk of a computer security incident that could result in a security breach or
the loss of sensitive data.
       Recommendation 19. We recommend that the Chief Information Officer, in
       coordination with Information Resource Management/Information Assurance and Office
       of Computer Security (Diplomatic Security/Systems Integrity/Civil Service), update the
       Information Assurance Training Plan to require newly hired and current employees and
       contractors who are in positions that are responsible for the security of the organization’s
       information and information systems complete role-based security-related training before
       authorizing access to the system or performing assigned duties and periodically thereafter
       (for example, annually).

       Management Response: The Department concurred with the recommendation, stating
       that IRM/IA and DS/SI/CS “have initiated actions to update the Information Assurance

                                             20
                                        UNCLASSIFIED
                                           UNCLASSIFIED

          Training Plan and develop additional language on newly hired and current employees,
          contractors, including role-based security-related training.”

          OIG Analysis: OIG considers the recommendation resolved. The recommendation can
          be closed when OIG reviews and approves the finalized Information Assurance Training
          Plan and additional language on newly hired and current employees, contractors,
          including role-based security-related training.

          Recommendation 20. We recommend that the Chief Information Officer, in
          coordination with Information Resource Management/Information Assurance and all
          bureaus, develop and implement monitoring processes and procedures to ensure that
          personnel with significant security responsibilities receive the appropriate training in
          accordance with the Information Assurance Training Plan.

          Management Response: The Department concurred with the recommendation, stating
          that IRM/IA and DS/SI/CS “have initiated actions to update the Information Assurance
          Training Plan and develop additional language on newly hired and current employees,
          contractors, including role-based security-related training.”

          OIG Analysis: OIG considers the recommendation resolved. The recommendation can
          be closed when OIG reviews and approves the finalized Information Assurance Training
          Plan and additional language on newly hired and current employees, contractors,
          including role-based security-related training.

Finding I. Plans of Action and Milestones Are Not Effective
       Various bureaus and offices, including the Bureau of Consular Affairs, IRM, the Bureau
of Human Resources, the Office of Medical Services, the Bureau of Arms Control, Verification
and Compliance, the Office of the Secretary, and the Bureau of Overseas Buildings Operations,
were not compliant with the Department’s POA&M process.36
      1. For systems residing on OpenNet:
              a. 58 percent of the open POA&Ms (that is, 2,006 of 3,458) control weaknesses
                 were overdue by more than 90 days. For example,
                       i. 235 open POA&Ms were over 2 years old.
                      ii. Bureau of Consular Affairs alone had 927 POA&Ms that were overdue.
              b. There were 515 POA&Ms that were remediated from December 2009 to March
                 2012, but verification had not been performed by the Bureau Executive,
                 Information System Owner, or designee to close out those POA&Ms.
              c. POA&M fields were not being consistently updated as required:
                       i. For 2,858 POA&Ms (83 percent), resources were not budgeted.


36
     Department of State POA&M Toolkit.
                                                21
                                           UNCLASSIFIED
                                          UNCLASSIFIED

      2. For systems residing on ClassNet, 36 percent of open actions (that is, 365 of 1,006)
         control weaknesses were overdue by more than 290 days. For example,
              a. 39 open POA&Ms were over 2 years old.
              b. The Office of the Secretary and IRM each had more than 100 open POA&Ms that
                 were overdue.
       POA&M is a tool that identifies tasks that need to be accomplished. It details resources
required to accomplish the elements of the plan, any milestones in meeting the task, and
scheduled completion dates for the milestones.37 The POA&M should also identify other non-
funding obstacles and challenges to resolving the weakness. POA&Ms must include all security
weaknesses found during any other review done by, for, or on behalf of the agency. These plans
should be the authoritative agency-wide management tool, inclusive of all evaluations.38
    Information System Owner or the Executive Director (or Designee) for a bureau is not taking
the following actions:
             Providing the resources needed to close actions.
             Taking management action, as needed, to ensure work is completed on schedule.
             Reviewing status (at least quarterly) by looking at relevant bureau POA&M tracking
              database reports (after the database is updated for the quarter).

        IRM/IA distributes a quarterly POA&M grading memorandum for OpenNet systems to
Bureau Executives. However, there is no requirement in the memorandum for responses to be
provided to IRM/IA as to what actions the bureaus intend to implement to ensure the outstanding
POA&Ms are closed out in a timely manner. At the conclusion of our fieldwork, IRM/IA had
updated the memorandum with the response requirement and stated that it would be
implementing this requirement in Quarter 4 of FY 2012 and that IRM/IA had been working with
its counterparts within each bureau to reduce the number of outstanding POA&Ms.

          Recommendation 21. We recommend that the Chief Information Officer, in
          coordination with the Bureau of Consular Affairs, the Bureau of Information Resource
          Management, the Bureau of Human Resources, the Office of Medical Services, the
          Bureau of Arms Control, Verification and Compliance, the Office of the Secretary, and
          the Bureau of Overseas Buildings Operations Bureau Executive Director or Information
          System Owner, their equivalent, or a designee, ensure that responses are provided for the
          Quarterly Plan of Action & Milestones Grade Memorandums to address how the bureaus
          and offices plan to close out the outstanding plan of action and milestones, that the plan
          of action and milestones completion dates for corrective actions that expired are updated
          and the resources required for remediation are updated, that remediation actions
          undertaken for plan of action and milestones are verified in a timely manner, and that
          required fields within the plan of action and milestones are included (for example,
          resources).


37
     OMB Memorandum M-02-01, Oct. 17, 2001.
38
     OMB Memorandum M-04-25, Aug. 2004.
                                               22
                                          UNCLASSIFIED
                                          UNCLASSIFIED

          Management Response: The Department concurred with the recommendation, stating
          that IRM/IA and DS/SI/CS had “taken action to include in the recently issued . . .
          POA&M grading memos, instructions for the [b]ureaus to respond within 10 business
          days on their plans to remediate and close open POA&M entries.” The Department
          further stated, “A report of the responders has been sent to the Chief Information Security
          Officer for further action and escalation.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation can
          be closed when OIG reviews and approves documentation showing the instructions for
          the bureaus to respond on their plans to remediate and close open POA&M entries and
          documentation showing that report of the responders has been sent to the Chief
          Information Security Officer for further action and escalation.

Finding J. Remote Access Policies and Procedures Need Improvement
        Remote access controls can be improved. IRM/IA has a process in place to authorize
remote access administration using Remote Desktop Protocol via Global OpenNet (GO) for
administrators, which contradicts 12 FAM 680, which prohibits the use of remote
administration. 12 FAM 680 is outdated because it does not reflect business requirements for
remote administration. The FAM39 states that remote access is only authorized for user-level
privileges; remote administration/maintenance is prohibited. Remote access for system
administration needs to be granted because of the time zone differences in the constituencies the
Department of State serves overseas.

        Additionally, supporting documentation was not provided and we were not able to test
authorization requests for key fobs/tokens. Remedy tickets evidencing service requests for key
fobs/tokens for remote access could not be located for 19 of 25 new employees selected for
testing. The respective bureaus did not submit service requests for key fobs/tokens to the IT
Service Center, and as such, Remedy tickets could not be provided.

        Lack of supervisory approval for remote access increases the Department’s risk for an
insider to gain unauthorized remote access to the Department’s systems. This would enable the
performance of unauthorized activities, such as modifying Department sensitive data, improperly
releasing sensitive data, or intentionally destroying sensitive data.

          Recommendation 22. We recommend that the Chief Information Officer, in
          coordination with the Bureau of Diplomatic Security, update the Foreign Affairs Manual,
          12 FAM 680, to reflect the current process of granting administrators the capabilities for
          remote administration (for example, allowing exception waivers for remote access
          administration).

          Management Response: The Department did not concur with this recommendation,
          stating that the “current 12 FAM policy is clear and unambiguous on this topic.” The


39
     12 FAM 682.2-3.
                                               23
                                          UNCLASSIFIED
                                       UNCLASSIFIED

       Department further stated that IRM/IA’s policy on the exemption process “provides that
       each exemption is fully documented and available for review.”

       OIG Analysis: OIG considers the recommendation unresolved and open. The FAM, 12
       FAM 680, prohibits remote administration/maintenance, which conflicts with IRM/IA’s
       policy on the exemption process.

       This recommendation can be closed when OIG reviews and approved documentation
       showing that 12 FAM 680 has been updated to reflect the current process of granting
       administrators the capabilities for remote administration.

       Recommendation 23. We recommend that the Chief Information Officer, in
       coordination with all bureaus and respective Executive Directors, improve their process
       for submitting service requests to the Information Technology Service Center for key
       fobs/tokens for new employees.

       Management Response: The Department did not concur with the recommendation,
       stating that it “is compliant with [OMB’s] requirement to track fobs/tokens to identify the
       personnel who participate in telework opportunities.”

       OIG Analysis: OIG considers this recommendation unresolved and open. The
       correlation between users with key fobs/token and personnel who participate in telework
       opportunities could not be determined. Service requests to the Information Technology
       Service Center for key fobs/tokens are initiated by Telework Agreement Approvals.
       From a sample of 25 users with key fobs/tokens, service requests for 19 users could not
       be provided.

       This recommendation can be closed when OIG reviews and approves the Department’s
       actions for improving the process for submitting service requests as specified.

Finding K. The Continuity of Operations Program Needs To Be Improved
       Contingency plans have been developed at the system level, bureau level, and even the
national level; however, the COOP for communications and the infrastructure were not
documented at the Department level (entity). Also, an entity-wide BIA had not been
documented to ensure the coordination of the recovery prioritizations of critical mission/business
processes and services in the event of a disruption at the Enterprise Service Operation Center.

       According to NIST SP 800-34, Revision 1, Federal Continuity Directive 2 provides a
required template for a process-based BIA to identify the information systems that support
COOP functions for the process-based BIA.

      IRM is focused on the Emergency Action Plan, which ensures the safety of Department
employees and bureau readiness, instead of the COOP, which contributes to the continuation of
communications and the network for the entire Department. The Department had not modified

                                            24
                                       UNCLASSIFIED
                                        UNCLASSIFIED

the FAM to provide guidance and direction for the COOP development. During fieldwork of the
audit, the Department was in the process of developing the BIA.

       Without a BIA, the Department increases the risks that it will not recover primary
mission-critical functions based on established recovery priorities. Critical mission/business
processes and services will not be restored in the required timeframe in the event of a disruption.

       Recommendation 24. We recommend that the Chief Information Officer, in
       coordination with the Bureau of Diplomatic Security, update the Foreign Affairs Manual
       to provide guidance and direction for Continuity of Operations Plan development and
       implementation.

       Management Response: The Department concurred with the recommendation, stating
       that it “is currently working with DS to update the FAM.”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and approves documentation showing that the portion of the
       FAM described has been updated.

       Recommendation 25. We recommend that the Chief Information Officer, in
       coordination with the Bureau of Information Resource Management/Information
       Assurance, perform an entity-wide Business Impact Analysis and develop a strategy to
       prioritize recovery of the critical assets within the Department and align the Business
       Impact Analysis of the primary mission-critical functions with Information Resource
       Management’s Maximum Tolerable Downtime for the network.

       Management Response: The Department concurred with the recommendation, stating
       that it “has taken corrective actions to develop a Business Impact Analysis.”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and approves documentation showing that the entity-wide
       Business Impact Analysis has been finalized.

       Recommendation 26. We recommend that the Chief Information Officer, in
       coordination with the Bureau of Information Resource Management/Information
       Assurance, develop a Continuity of Operations Plan for communications and the
       infrastructure at the Department level (entity) that complies with National Institute of
       Standards and Technology Special Publication 800-34, Revision 1, Contingency
       Planning Guide for Federal Information Systems, and includes the standard elements of a
       Continuity of Operations Plan.

       Management Response: The Department concurred with the recommendation, stating
       that the Chief Information Officer and IRM/IA were developing a Continuity of
       Operations Plan for communications that “complies with the applicable NIST guidance
       and will include the standard elements of a Continuity of Operations Plan.”


                                             25
                                        UNCLASSIFIED
                                               UNCLASSIFIED

            OIG Analysis: OIG considers the recommendation resolved. This recommendation can
            be closed when OIG reviews and approves documentation showing the finalized
            Continuity of Operations Plan for communications that complies with the applicable
            NIST guidance and includes the standard elements of a Continuity of Operations Plan.

Finding L. Information System Contingency Plans Need To Be Improved
       Although the Department had made some progress in addressing the prior years’ audit
findings for the information system contingency plans, weaknesses still existed as follows:

           Alternate processing site details were not documented in the Contingency Plans for five
            of 16 systems residing on OpenNet and four of 10 systems residing on ClassNet that we
            selected for testing. (Details are in Appendix H.)
           Annual Contingency Plan tests were not performed for FY 2012 on two of 16 systems
            residing on OpenNet and four of 10 systems residing on ClassNet that we selected for
            testing. (Details are in Appendix G.)

       NIST 40 requires agencies to identify an alternate storage site that is geographically
separated from the primary storage site so as not to be susceptible to the same hazards and to
conduct annual tests of backup information to verify media reliability and information integrity.

        NIST41 requires an organization to perform tests and/or exercises of the contingency plan
for the information system. In addition, the IRM/IA Contingency Planning Toolkit requires
testing contingency plans on an annual basis.

       The Department had a decentralized process for developing and implementing a system’s
contingency plan and had not developed the processes to ensure bureaus comply with IRM/IA
Contingency Planning Toolkit to perform annual contingency plan tests and provide required
documentation to IRM/IA.

        By inadequately documenting the contingency plan, the Department increases the risk of
failing to maintain operations or to recover mission-critical systems in a timely manner in the
event of a signification disruption in operations. As a result, the Department increases its risk of
failing to meet its primary mission-critical functions and continue normal business activities of
service to the public and abroad.

            Recommendation 27. We recommend that the Chief Information Officer, in
            coordination with bureaus and the Information System Owners, document and maintain
            alternate site locations and procedures for accessing the alternate site and perform annual
            contingency plan tests and update contingency plans with test results as necessary.

            Management Response: The Department concurred with the recommendation, stating
            that IRM/IA had taken c”orrective actions to incorporate checklists questions regarding


40
     NIST SP 800-53, Rev. 3, CP-7, “Alternate Processing Site.”
41
     NIST SP 800-53, Rev. 3, CP-4, “Contingency Plan Testing and Exercises.”
                                                    26
                                               UNCLASSIFIED
                                             UNCLASSIFIED

          the existence of alternate site locations, as well as procedures for accessing these
          facilities.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation can
          be closed when OIG reviews and approves documentation showing the finalized checklist
          questions regarding the existence of alternate site locations, as well as procedures for
          accessing these facilities.

Finding M. Oversight of Contractor Systems and Extensions Needs
Improvement
       Efforts to strengthen the Department’s oversight of contractor/government system and
extension program had been made; however, weaknesses still existed as follows:

        The Gateway to State and Foreign Service Officer Test systems, each identified as
         Contractor Company Hosted Systems within the IT Asset Baseline system, had system
         security plans that were not compliant with NIST SP 800-53, Revision 3, requirements.

        Not all government extensions (older sites) had been documented (that is, an OpenNet
         extension that exists at the Broadcasting Board of Governors and authorization
         memoranda were not available or did not exist).

       OMB42 requires agencies to be fully responsible and accountable for ensuring contractor
systems are compliant with FISMA. Agencies must ensure identical, not “equivalent,” security
procedures.

        IRM did not publish the updated C&A Toolkit until December 2011, even though NIST
SP 800-53, Revision 3, was finalized in August 2009. OMB requires compliance with new
special publications within a year unless otherwise stated. For the OpenNet extensions, IRM
only tracked extensions at contractor sites and did not consider other Government agencies as a
contractor.

        Without adequate oversight of contractor-hosted systems, government extensions, and
contractor extensions, the Department cannot ensure that the contractor’s information security
controls are compliant with FISMA, OMB requirements, and NIST standards. Further, the
Department increases the risk to the Department data for unauthorized access, use, disclosure,
disruption, modification, or destruction that is collected, processed, and maintained by
contractor-hosted systems, government extensions, and contractor extensions.
          Recommendation 28. We recommend that the Chief Information Officer, in
          coordination with the Bureau of Diplomatic Security, continue to ensure that annual
          physical inspections are completed for all OpenNet and ClassNet extensions.

          Management Response: The Department concurred with the recommendation, stating
          that it “will continue to ensure compliance with established schedules.”

42
     OMB Memorandum M-12-20, Oct. 2, 2012.
                                                  27
                                             UNCLASSIFIED
                                        UNCLASSIFIED

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and approves documentation showing the Department’s
       progress in complying with established schedules.

       Recommendation 29. We recommend that the Chief Information Officer, in
       coordination with the Bureau of Information Resource Management/Information
       Assurance, continue to review System Security Assessment packages, annual controls
       assessments, and contingency plans tests to ensure that bureaus are implementing the
       required National Institute of Standards and Technology Special Publication 800-53,
       Revision 3, Recommended Security Controls for Federal Information Systems and
       Organizations controls and updating System Security Plans for the contractor-hosted
       systems.

       Management Response: The Department concurred with the recommendation, stating
       that it “will continue to conduct the normal processing reviews to ensure compliance with
       NIST SP 800-53 rev. 3 and subsequent revisions.”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and approves documentation showing the contractor-hosted
       systems’ compliance with National Institute of Standards and Technology Special
       Publication 800-53, Revision 3.

       Recommendation 30. We recommend that the Chief Information Officer, in
       coordination with the Bureau of Information Resource Management/Information
       Assurance, continue to implement procedures to coordinate security activities for
       tracking all extensions (that is, contractor sites and other government agencies via iPost)
       to OpenNet and ClassNet.

       Management Response: The Department did not concur with the recommendation,
       stating that it “asserts the current process in practice are effective, periodic review of the
       process will be conducted and updates made when needed.”

       OIG Analysis: OIG modified the recommendation from the draft report to “continue” to
       implement procedures to coordinate security activities for tracking all extensions, since
       the procedures were recently implemented during the audit (FY2012).

       OIG considers the recommendation resolved. The recommendation can be closed when
       OIG reviews and approves documentation showing the tracking of all OpenNet and
       ClassNet extensions (that is, contractor sites and other government agencies via iPost).

Finding N. Security Capital Planning Requires Improvement
       Our review of the business cases and OMB Exhibits 300 for the new enterprise level IT
investments (Application Services, Data Center Services/Hosting, and Deployment, Maintenance
& Refresh) found that the IRM exhibits were not complete because the IT investments were
newly established Exhibits 300 this fiscal year. Specifically, we found that Investment level

                                             28
                                        UNCLASSIFIED
                                             UNCLASSIFIED

Acquisition Plan, Earned Value, Integrated Program Team Charter, Investment Charter, Project
Charters (as appropriate), and Risk Management Plan were incomplete within electronic
Capital Planning Investment Control (eCPIC).43 However, the IRM Portfolio Management
Division was working with the respective Program Managers to ensure that these investments
had up-to-date and complete eCPIC reporting for the next submission to OMB.

        OMB44 states that agencies must develop and maintain the following documents, all of
which may be requested, and are subject to delivery within 10 business days: Investment Level
Alternative Analysis, Investment Level Acquisition Plan, Earned Value Reports on large
projects, Integrated Program Team Charter, Investment Charter; Project Charters (as
appropriate), and Risk Management Plan.

        According to officials in the Portfolio Management Division, the newly assigned IRM
Service Line Program Manager did not have the time to gain the appropriate level of guidance,
training, and understanding of the new eCPIC requirements to ensure complete Exhibits 300
and accurate identification and reporting of the resources required to protect the information
systems.

        Without providing proper justification for funds, IRM’s accountability of the IT
Infrastructure investment is not fully supported. OMB will not give the investment’s Exhibit 300
a passing score if the Exhibits are incomplete. Failure to earn a passing score puts the
investment’s entire Exhibit 300 at risk for failing and for losing funding. These project charters
and risk management plans are critical not only to investments’ success but also to securing the
funding necessary to acquire and operate IT investments.

        Recommendation 31. We recommend that the Bureau of Information Resource
        Management senior management ensure that Information Technology Service Line
        Program Managers obtain the appropriate level of electronic Capital Planning Investment
        control tool training and understanding regarding their electronic Capital Planning
        Investment Control reporting requirements and that they are held accountable for
        completing their respective Exhibits 300, including the accurate reporting of the
        resources required to protect their information systems, as part of the next electronic
        Capital Planning Investment Control submission.

        Management Response: The Department concurred with the recommendation, stating
        that it was “identifying training opportunities to further understand the reporting
        requirements needed to ensure accurate reporting of Capital Planning Investment Control
        submissions.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and approves documentation, showing that Information

43
   The Department of State’s electronic Capital Planning Investment Control (eCPIC) portfolio management tool
that is used for managing IT investments.
44
   “OMB Guidance on Exhibit 300 – Planning, Budgeting, Acquisition, and Management of Information
Technology Capital Assets,” Aug. 2011.

                                                  29
                                             UNCLASSIFIED
                              UNCLASSIFIED

Technology Service Line Program Managers have been trained on the electronic Capital
Planning Investment control tool.




                                   30
                              UNCLASSIFIED
                                       UNCLASSIFIED


                       List of Current Year Recommendations

Recommendation 1. We recommend that the Information Security Steering Committee finalize
and implement an enterprise-wide continuous monitoring and risk management framework
strategy that addresses framing risk, assessing risk, responding to risk, and monitoring risk.

Recommendation 2. We recommend the Chief Information Officer, in coordination with the
Bureau of Diplomatic Security and the Bureau of Information Resource Management, include,
under its continuous monitoring program, an effective method to monitor the security posture for
non-Windows operating systems, databases, firewalls, routers, and switches.

Recommendation 3. We recommend that the Chief Information Officer, in coordination with
the Bureau of Information Resource Management, Enterprise Network Management, and the
Bureau of Diplomatic Security, finalize and implement the Cyber Security Architecture draft
target architecture and initiative for end-to-end configuration management.

Recommendation 4. We recommend that the Chief Information Officer, in coordination with
the Bureau of Consular Affairs, the Bureau of Administration, the Bureau of Resource
Management, the Office of Medical Services, the Bureau of Overseas Buildings Operations, the
Bureau of International Narcotics and Law Enforcement Affairs, the Foreign Service Institute,
the Bureau of Diplomatic Security, the Bureau of International Information Program, and the
Bureau of Information Resource Management, continue to improve their processes to patch
servers within their system boundary in a timely manner.

Recommendation 5. We recommend that the Security Configuration Management Branch
develop and publish the security configuration baselines for UNIX in accordance with the
Foreign Affairs Manual.

Recommendation 6. We recommend that the Chief Information Officer, in coordination with
the Bureau of Diplomatic Security/Security Infrastructure/Office of Computer Security, research,
develop, and implement capabilities (for example, scanning tools) to perform periodic network
vulnerability and compliance scans on Oracle databases, applications, network devices (for
example, routers and switches), UNIX operating systems, and Demilitarized Zone servers.

Recommendation 7. : We recommend that the Chief Information Officer, in coordination with
Diplomatic Security/Security Infrastructure/Office of Computer Security, update the Foundstone
configuration to include subnets and Demilitarized Zone servers that were not included in the
Foundstone configuration for periodic scanning and obtain the administrative credentials needed
to perform the scans and periodically perform discovery scanning to identify new components
added to the network.
Recommendation 8. We recommend that the Chief Information Officer, in coordination with
respective System Administrators from all bureaus, take immediate action to remove or lock
accounts that do not require a password.

Recommendation 9. We recommend that the Chief Information Officer, in coordination with
the Bureau of Diplomatic Security, revise the Foreign Affairs Manual to provide authority to the
                                            31
                                       UNCLASSIFIED
                                       UNCLASSIFIED

Chief Information Officer to review and identify accounts not used within the past 90 days and to
de-activate such accounts and require the bureaus and posts to recertify the user account prior to
re-activating the account.

Recommendation 10. We recommend that the Chief Information Officer, in coordination with
bureau and post Data Center Managers and System Managers, require the posts and bureaus to
configure all accounts to expire passwords in accordance with the Foreign Affairs Manual (that
is, passwords must be changed every 60 days).

Recommendation 11. We recommend that the Chief Information Officer, in coordination with
Bureau of Diplomatic Security, determine whether unauthorized access was performed using the
terminated employees’ credentials and whether Department information had been compromised.

Recommendation 12. We recommend that the Chief Information Officer, in coordination with
Information System Security Officers and system administrators of the Bureau of East Asian and
Pacific Affairs, the Bureau of Near Eastern Affairs, the Washington District of Columbia, and
the Bureau of Western Hemisphere Affairs, improve the process of disabling terminated
employees user accounts in a timely manner.

Recommendation 13. We recommend that the Chief Information Officer, in coordination with
the Orientation and In-Processing Center, enforce the use of the Department of State Logon
Request form for new users in Afghanistan.

Recommendation 14. We recommend that the Chief Information Officer, in coordination with
Information Resource Management/Operations Directorate/Computer Security Office/Desktop
Support Division, update the Information Technology Mart Standard Operating Procedures to
reflect the updated account management procedures for new users in Afghanistan.

Recommendation 15. We recommend that the Chief Information Officer, in coordination with
Office of the Secretary, develop and finalize exemptions/waivers to allow for the deviation from
the standard of setting expiration dates for Office of the Secretary user accounts in Active
Directory.

Recommendation 16. We recommend that the Chief Information Officer, in coordination with
Office of the Secretary, develop and implement a process that ensures that Office of the
Secretary users complete the required Cyber Security Awareness Training on an annual basis.

Recommendation 17. We recommend that the Chief Information Office, in coordination with
Information Resource Management/Information Assurance, continue to review the security
authorization and annual assessments to ensure that Information System Owner, Information
System Security Officer, and Security Control Assessor for all Federal Information Security
Management Act reportable systems use the published Certification & Accreditation Toolkit
templates during the annual controls assessment to assess the required National Institute of
Standards and Technology Special Publication 800-53, Revision 3, Recommended Security
Controls for Federal Information Systems and Organizations controls applicable and update the
System Security Plan accordingly.


                                            32
                                       UNCLASSIFIED
                                        UNCLASSIFIED

Recommendation 18. We recommend that the Chief Information Officer continue to track the
progress of the full authorization of the OpenNet general support system.

Recommendation 19. We recommend that the Chief Information Officer, in coordination with
Information Resource Management/Information Assurance and Office of Computer Security
(Diplomatic Security/Systems Integrity/Civil Service), update the Information Assurance
Training Plan to require newly hired and current employees and contractors who are in positions
that are responsible for the security of the organization’s information and information systems
complete role-based security-related training before authorizing access to the system or
performing assigned duties and periodically thereafter (for example, annually).

Recommendation 20. We recommend that the Chief Information Officer, in coordination with
Information Resource Management/Information Assurance and all bureaus, develop and
implement monitoring processes and procedures to ensure that personnel with significant
security responsibilities receive the appropriate training in accordance with the Information
Assurance Training Plan.

Recommendation 21. We recommend that the Chief Information Officer, in coordination with
the Bureau of Consular Affairs, the Bureau of Information Resource Management, the Bureau of
Human Resources, the Office of Medical Services, the Bureau of Arms Control, Verification and
Compliance, the Office of the Secretary, and the Bureau of Overseas Buildings Operations
Bureau Executive Director or Information System Owner, their equivalent, or a designee, ensure
that responses are provided for the Quarterly Plan of Action & Milestones Grade Memorandums
to address how the bureaus and offices plan to close out the outstanding plan of action and
milestones, that the plan of action and milestones completion dates for corrective actions that
expired are updated and the resources required for remediation are updated, that remediation
actions undertaken for plan of action and milestones are verified in a timely manner, and that
required fields within the plan of action and milestones are included (for example, resources).

Recommendation 22. We recommend that the Chief Information Officer, in coordination with
the Bureau of Diplomatic Security, update the Foreign Affairs Manual, 12 FAM 680, to reflect
the current process of granting administrators the capabilities for remote administration (for
example, allowing exception waivers for remote access administration).

Recommendation 23. We recommend that the Chief Information Officer, in coordination with
all bureaus and respective Executive Directors, improve their process for submitting service
requests to the Information Technology Service Center for key fobs/tokens for new employees.

Recommendation 24. We recommend that the Chief Information Officer, in coordination with
the Bureau of Diplomatic Security, update the Foreign Affairs Manual to provide guidance and
direction for Continuity of Operations Plan development and implementation.

Recommendation 25. We recommend that the Chief Information Officer, in coordination with
the Bureau of Information Resource Management/Information Assurance, perform an entity-
wide Business Impact Analysis and develop a strategy to prioritize recovery of the critical assets
within the Department and align the Business Impact Analysis of the primary mission-critical

                                             33
                                        UNCLASSIFIED
                                        UNCLASSIFIED

functions with Information Resource Management’s Maximum Tolerable Downtime for the
network.

Recommendation 26. We recommend that the Chief Information Officer, in coordination with
the Bureau of Information Resource Management/Information Assurance, develop a Continuity
of Operations Plan for communications and the infrastructure at the Department level (entity)
that complies with National Institute of Standards and Technology Special Publication 800-34,
Revision 1, Contingency Planning Guide for Federal Information Systems, and includes the
standard elements of a Continuity of Operations Plan.

Recommendation 27. We recommend that the Chief Information Officer, in coordination with
bureaus and the Information System Owners, document and maintain alternate site locations and
procedures for accessing the alternate site and perform annual contingency plan tests and update
contingency plans with test results as necessary.

Recommendation 28. We recommend that the Chief Information Officer, in coordination with
the Bureau of Diplomatic Security, continue to ensure that annual physical inspections are
completed for all OpenNet and ClassNet extensions.

Recommendation 29. We recommend that the Chief Information Officer, in coordination with
the Bureau of Information Resource Management/Information Assurance, continue to review
System Security Assessment packages, annual controls assessments, and contingency plans tests
to ensure that bureaus are implementing the required National Institute of Standards and
Technology Special Publication 800-53, Revision 3, Recommended Security Controls for
Federal Information Systems and Organizations controls and updating System Security Plans for
the contractor-hosted systems.

Recommendation 30. We recommend that the Chief Information Officer, in coordination with
the Bureau of Information Resource Management/Information Assurance, continue to implement
procedures to coordinate security activities for tracking all extensions (that is, contractor sites
and other government agencies via iPost) to OpenNet and ClassNet.
Recommendation 31. We recommend that the Bureau of Information Resource Management
senior management ensure that Information Technology Service Line Program Managers obtain
the appropriate level of electronic Capital Planning Investment control tool training and
understanding regarding their electronic Capital Planning Investment Control reporting
requirements and that they are held accountable for completing their respective Exhibits 300,
including the accurate reporting of the resources required to protect their information systems, as
part of the next electronic Capital Planning Investment Control submission.




                                             34
                                        UNCLASSIFIED
                                            UNCLASSIFIED


                                                                                              Appendix A

                                   A. Scope and Methodology

       In order to fulfill its responsibilities related to the Federal Information Security
Management Act (FISMA), the Office of Inspector General (OIG), Office of Audits, contracted
with Williams, Adley & Company-DC, LLP (referred to as “we” in this appendix), an
independent public accountant, to evaluate the Department of State’s information security
program and practices to determine the effectiveness of such programs and practices for FY
2012. The OIG and Williams, Adley & Company-DC, LLP, held an exit conference with
management on November 15, 2012.

        FISMA requires each Federal agency to develop, document, and implement an agency-
wide program to provide information security for the information systems that support the
operations and assets of the agency, including those provided or managed by another agency or
contractor or another source. To ensure the adequacy and effectiveness of these controls,
FISMA requires the agency inspector general or an independent external auditor to perform
annual reviews of the information security program and to report those results to the Office of
Management and Budget (OMB) and the Department of Homeland Security (DHS). DHS uses
this data to assist in oversight responsibilities and to prepare its annual report to Congress
regarding agency compliance with FISMA.

        We performed the audit in accordance with Generally Accepted Government Auditing
Standards (GAGAS), FISMA, OMB, and National Institute of Standards and Technology (NIST)
Special Publications (SP) guidance. GAGAS requires that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our evaluation objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.

        Our fieldwork was completed before OMB Memorandum M-12-20, “FY 2012 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management,” October 2, 2012, was issued. This memorandum provided instructions for FY
2012 reporting requirements. We reviewed the memorandum and evaluated its impact on our
results but determined that no changes were required to be made.

       We used the following laws, regulations, and policies to evaluate the adequacy of the
controls in place at the Department:

           OMB Memorandums M-02-01, M-04-04, M-06-19, and M-12-20.1
           DHS Federal Information Security Memorandum (FISM) 12-02.2
1
  OMB Memorandum 02-01, “Guidance for Preparing and Submitting Security Plans of Action and Milestones”;
OMB Memorandum 04-04, “E-Authentication Guidance for Federal Agencies”; OMB Memorandum 06-19,
“Reporting Incidents Involving Personally Identifiable Information and Incorporating the Cost for Security in
Agency Information Technology Investments”; OMB Memorandum M-12-20, “FY 2012 Reporting Instructions for
the Federal Information Security Management Act and Agency Privacy Management,” respectively.
2
  DHS Memorandum 12-02, “FY 2012 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management,” Feb. 15, 2012.
                                                 35
                                            UNCLASSIFIED
                                            UNCLASSIFIED


           Department policies and procedures such as the Foreign Affairs Manual (5 FAM and
            12 FAM).3
           Federal laws, regulations, and standards such as FISMA, OMB Circular A-130,
            Appendix III,4 and OMB Circular No. A-11.5
           NIST Special Publications (SP), Federal Information Processing Standards, other
            applicable NIST publications, and industry best practices.

      In our audit, we assessed the Department’s information security program policies,
procedures, and processes in the following areas:

           Continuous monitoring
           Security configuration management
           Account and identity management
           Incident response and reporting
           Risk management framework (formerly Certification & Accreditation)
           Security training
           Plan of action and milestones (POA&M)
           Remote access
           Contingency planning
           Oversight of contractor systems
           Security capital planning

       The audit covered the period of October 1, 2011, to September 30, 2012. During the
fieldwork, we took the following actions:

       Determined the extent to which the Department’s information security plans,
        programs, and practices complied with FISMA requirements; applicable Federal laws,
        regulations, and standards; relevant OMB Circular A-130, Appendix III, processes
        and reporting requirements; and NIST and Federal Information Processing Standards
        requirements.

       Reviewed all relevant security programs and practices to report on the effectiveness of
        the Department’s agency-wide information security program in accordance with OMB’s
        annual FISMA reporting instructions. The audit approach addressed the reporting
        instructions from OMB Memorandum M-12-20.

       Assessed programs for monitoring of security policy and program compliance and
        responding to security events (that is, unauthorized changes detected by intrusion
        detection systems).

       Performed testing of major systems at the discretion of OIG. We tested 26 systems
        for our sample. (See Appendix E).

3
  5 FAM, “Information Management” and 12 FAM, “Diplomatic Security.”
4
  OMB Circular No. A-130 Revised Appendix III, “Security of Federal Automated Information Resources.”
5
  OMB Circular No. A–11, “Preparation, Submission, and Execution of the Budget.”
                                                 36
                                            UNCLASSIFIED
                                       UNCLASSIFIED


      Assessed the adequacy of internal controls related to the areas reviewed. Control
       deficiencies identified during the review are reported in the report.

      Evaluated the Department’s remedial action taken to address the previously reported
       Information Security Program control weaknesses identified in OIG’s report Evaluation
       of Department of State Information Security Program (AUD/IT-12-14, Nov. 2011).

Review of Internal Controls

       We reviewed the Department’s internal controls to determine whether:

      The Department had established an enterprise wide continuous monitoring program that
       assesses the security state of information systems that is consistent with FISMA
       requirements, OMB policy, and applicable NIST guidelines.

      The Department had established and was maintaining a security configuration
       management program that was consistent with FISMA requirements, OMB policy, and
       applicable NIST guidelines.

      The Department had established and was maintaining an account and identity
       management program that was generally consistent with NIST's and OMB's FISMA
       requirements and identifies users and network devices.

      The Department had established and was maintaining an incident response and reporting
       program that was consistent with FISMA requirements, OMB policy, and applicable
       NIST guidelines.

      The Department had established a risk management program that was consistent with
       FISMA requirements, OMB policy, and applicable NIST guidelines.

      The Department had established and was maintaining a security training program that
       was consistent with FISMA requirements, OMB policy, and applicable NIST guidelines.

      The Department had established a POA&M program that was consistent with FISMA
       requirements, OMB policy, and applicable NIST guidelines and that tracked and
       monitored known information security weaknesses.

      The Department had established and was maintaining a remote access program that was
       generally consistent with NIST and OMB FISMA requirements.

      The Department had established and was maintaining an entity-wide business
       continuity/disaster recovery program that was generally consistent with NIST's and
       OMBFISMA requirements.

      The Department had established a program to oversee systems operated on its behalf by
       contractors or other entities, including organization systems and services residing in the
       cloud external to the organization.
                                            37
                                       UNCLASSIFIED
                                       UNCLASSIFIED


      The Department had established and maintained a capital planning and investment
       program for information security.

Use of Computer-Processed Data

        During the audit, we utilized computer-processed data to obtain samples and information
regarding the existence of information security controls. Specifically, we obtained data extracted
from Microsoft’s Active Directory and the Department’s human resources system to test user
account management controls. We also reviewed data generated by software tools to determine
the existence of security weaknesses that were identified during vulnerability assessments. We
assessed the reliability of computer-generated data primarily by comparing selected data with
source documents. We determined that the information was reliable for assessing the adequacy
of related information security controls.




                                            38
                                       UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                     Appendix B

     B. Follow-up of Recommendations From the FY 2011 FISMA Report
        The audit team reviewed actions implemented by management to mitigate the findings
identified in the FY 2011 FISMA report. The current status of each of the recommendations is
as follows:

Recommendation 1. We recommend that the Information Security Steering Committee (ISSC)
meet on a monthly basis to fulfill its purpose and responsibilities as required in ISSC charter.

2012 Status: Closed. As of March 2012, management updated the ISSC Charter to require the
ISSC to meet only on an adhoc basis.

Recommendation 2. We recommend that the Information Security Steering Committee
improve its risk management strategy at the organizational level for assessing, responding to, and
monitoring information security risk as required in the Foreign Affairs Manual and the National
Institute of Standards and Technology Special Publication 800-39.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendation 1 (Finding A) in the FY 2012 report.

Recommendation 3. We recommend that the Chief Information Officer:

          Improve oversight of the security assessment and authorization process for the
           Department’s information systems, especially the OpenNet General Support System
           (GSS) and ClassNet GSS as required by the National Institute of Standards and
           Technology (NIST) (SP) 800-37.
          Improve existing procedures to ensure security authorization packages are updated
           every 3 years or when a significant change occurs or develop a risk-based approach
           for implementing a continuous monitoring strategy as required by NIST SP 800-37.
          Improve existing procedures to ensure Systems Security Plans and Systems
           Assessment Reports are updated as required to comply with the security baseline
           controls contained in NIST SP 800-53 (Revision 3).
          Perform annual security assessments of a subset of a system’s security controls as
           required by NIST SP 800-37.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendations 17 and 18 (Finding G) in the FY 2012 report.

Recommendation 4. We recommend that the Chief Information Officer expedite the
Information Resource Management, Operations, Enterprise Network Management and
Diplomatic Security, Security Infrastructure, Office of Computer Security process to finalize and
implement the elements within the Cyber Security Architecture draft target architecture and
initiative for end-to–end configuration management and take immediate action to correct or
mitigate the high risk vulnerabilities identified by the vulnerability scanning as required by the
Foreign Affairs Manual and Diplomatic Security System Configuration Policy and Procedures.
                                                  39
                                          UNCLASSIFIED
                                        UNCLASSIFIED

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendations 3 and 4 (Finding B) in the FY 2012 report.

Recommendation 5. We recommend that the Chief Information Officer and the Bureau of
Diplomatic Security ensure, for significant security responsibility (SSR) training, that personnel
designated as having SSR responsibilities receive the appropriate training as required by the
Information Assurance Training Plan.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendation 20 (Finding H) in the FY 2012 report.

Recommendation 6. We recommend that the Chief Information Officer implement, for Security
Awareness Training, automated methods to replace the current manual process to track and
enforce the Department of State security awareness policy and to suspend a user’s access to the
network if the user has not taken the Cyber Security Awareness course within the required
timeframe as required by the Information Assurance Training Plan.

2012 Status: Closed. As of March 2012, the Cybersecurity Tracking system updates the user’s
Active Directory account expiration date immediately after the student completes the Cyber
Security Awareness (PS800) training. This Active Directory update extends the user’s account
expiration date by 368 days. If the user fails to retake the test in 368 days, the user’s account
expires and the user cannot access the system without manual intervention by an administrator.

Recommendation 7. We recommend that the Chief Information Officer:
      Implement a Plans of Action and Milestones (POA&M) tracking process for all
        ClassNet security weaknesses as required by Committee on National Security
        Systems Policy Number 22, Information Assurance Risk Management Policy for
        National Security Systems.
      Distribute the quarterly POA&M Grade Memorandums to the bureaus’ and offices’
        senior management (executive director) as required by M-04-25, FY 2004 Reporting
        Instructions for the Federal Information Security Management Act.
      Ensure that the POA&M completion dates and the required resources for OpenNet
        corrective actions are updated as required by OMB Memorandum M-04-25.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendation 21 (Finding I) in the FY 2012 report.

Recommendation 8. We recommend that the Chief Information Officer (CIO) develop and
implement Department of State processes and procedures to resolve weaknesses in user accounts
to ensure that unnecessary network user accounts are promptly removed by the bureaus and
posts. Further, the CIO should develop and implement procedures to ensure that bureaus and
organizational unit administrators annually review and recertify access privileges of users so that
the number of guest, test, and temporary accounts are managed effectively as required by the
Foreign Affairs Manual 12 FAM 622 and 12 FAM 629.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendations 8 – 10 (Finding E) in the FY 2012 report.
                                             40
                                       UNCLASSIFIED
                                        UNCLASSIFIED

Recommendation 9. We recommend that the Chief Information Officer (CIO) ensure
compliance with the account management process to make certain that user and administrator
accounts are created, modified, and deleted in a manner consistent with Department of State
policy. Further, the CIO needs to compare the terminated user listings provided by bureau and
post personnel officers with information contained in the active directory on a quarterly basis to
ensure that accounts for separated employees are removed timely, as required by NIST SP 800-
53, Revision 3, August 2009, Recommended Security Controls for Federal Information Systems
and Organizations, and the Foreign Affairs Manual (12 FAM 621.3).

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendations 11 – 15 (Finding F) in the FY 2012 report.

Recommendation 10. We recommend that the Information Security Steering Committee
develop, document, and implement an enterprise-wide continuous monitoring strategy that
addresses framing risk, assessing risk, responding to risk, and monitoring risk, as required by
NIST SP 800-39, Managing Information Security Risk.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendation 1 (Finding A) in the FY 2012 report.

Recommendation 11. We recommend that the Chief Information Officer in accordance with the
requirements in NIST SP 800-39, Managing Information Security Risk:

          Implement a continuous monitoring strategy at the enterprise-wide level.

          Obtain and use scanning software to enable effective scans of non-Windows
           operating systems, databases, firewalls, routers, and switches.

          Develop operating procedures to ensure the results are included in the Risk Scoring
           Program dashboard.

          Develop procedures to ensure that System Security Owners update the system
           security plans to include a continuous monitoring strategy to detail how system
           security controls is to be monitored.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendations 6 and 7 (Finding D) in the FY 2012 report.

Recommendation 12. We recommend that the Chief Information Officer, as required by NIST
SP 800-34, Revision 1, Contingency Planning Guide for Federal Information Systems, take the
following actions:

          Update the Continuity of Operations Communication Plan annually or when changes
           occur to the organization, network hardware, systems, and applications and, if
           necessary, after Continuity Testing.


                                             41
                                        UNCLASSIFIED
                                      UNCLASSIFIED


          Perform an entity-wide Business Impact Analysis and develop a strategy to prioritize
           recovery of the critical assets within the Department of State.

          Update the section of the Foreign Affairs Manual that contains guidance and direction
           for development and implementation of Continuity of Operations Communication
           Plan.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendations 24 – 26 (Finding K) in the FY 2012 report.

Recommendation 13. We recommend that the Bureau of Administration, Office of Emergency
Management, in coordination with the Chief Information Officer, align the Business Impact
Analysis of the Primary Mission Essential Functions with the Bureau of Information Resource
Management’s Maximum Tolerable Downtime for the network as required by NIST SP 800-34,
Revision 1, Contingency Planning Guide for Federal Information Systems.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendation 25 (Finding K) in the FY 2012 report.

Recommendation 14. As required by National Institute of Standards and Technology (NIST)
Special Publications (SP) 800-34, Revision 1, Contingency Planning Guide for Federal
Information Systems, and SP 800-53, Revision 3, Recommended Security Controls for Federal
Information Systems and Organizations, we recommend that the Bureau of Information Resource
Management, Office of Information Assurance, in coordination with the bureaus and system
owners, take the following actions:

          Document and maintain alternate site locations and procedures for accessing an
           alternate site.

          Develop and maintain contingency plans for all major applications and general
           support systems.

          Maintain and update recovery and restoration procedures for all applications and
           general support systems.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendation 27 (Finding L) in the FY 2012 report.

Recommendation 15. As required by National Institute of Standards and Technology (NIST)
Special Publications (SP) 800-34, Revision 1, Contingency Planning Guide for Federal
Information Systems and SP 800-53, Revision 3, Recommended Security Controls for Federal
Information Systems and Organizations, we recommend that the Chief Information Officer:

          Revise the Information Resource Management/ Information Assurance Contingency
           Plan Test Review checklist to address the following items:


                                           42
                                      UNCLASSIFIED
                                       UNCLASSIFIED

                  o Recovery and damage assessment procedures

                  o Alternate recovery site details

                  o Back-up procedures

                  o Back-up test results for moderate- and high-impact systems

          Revise the Contingency Plan Policy to include an organization-defined frequency for
           backup testing.

          Revise the Foreign Affairs Manual to require system owners to report to IRM/IA on
           the test results and updates to the contingency plans.

2012 Status: Closed. As of March 2012, the Information Resource Management/ Information
Assurance (IRM/IA) Contingency Plan Test Review checklist had been updated, the Contingency
Plan Policy now includes an organization-defined frequency for backup testing, and the Foreign
Affairs Manual requires system owners to report to IRM/IA on the test results and updates to the
contingency plans.

Recommendation 16. We recommend that the Chief Information Officer in accordance with the
Foreign Affairs Manual (5 FAM 1065.3) and the National Institute of Standards and Technology
Special Publication 800-47, Security Guide for Interconnecting Information Technology Systems,
take the following actions:

          Ensure that the contractor oversight program complies with Office of Management
           and Budget, Federal Information Security Management Act, National Institute of
           Standards and Technology, and the Foreign Affairs Manual security policies,
           standards, and requirements for managing Contractor Owned Contractor Operated
           (COCO) systems; specifically, all security-related documentation for such systems
           should be retained.

          Implement a COCO system security program whereby COCOs are overseen by the
           Bureau of Information Resource Management/ Information Assurance.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendations 28- 30 (Finding M) in the FY 2012 report.

Recommendation 17. We recommend that the Bureau of Diplomatic Security develop and
implement new and enhanced security requirements to coordinate security activities for tracking
all extensions (that is, contractor sites, other Government agencies, and third-party vendors) to
OpenNet and ClassNet as required by the Office of Management and Budget Memorandum M-
11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management.

2012 Status: Closed. This is a repeat recommendation from the FY 2011 report. It has become
Recommendation 30 (Finding M) in the FY 2012 report.
                                            43
                                       UNCLASSIFIED
                                       UNCLASSIFIED

Recommendation 18. We recommend that the Bureau of Diplomatic Security, in coordination
with the Bureau of Administration, establish procedures to identify the total number of
contractors who have access to Department of State systems, as required by the Office of
Management and Budget Memorandum M-11-33, FY 2011 Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy Management.

2012 Status: Closed. Domestically, the number of contractors can be tracked through
Centralized Emergency Notification System via the Data Capturing and Feeding (DCAF) system.
For overseas contractors, Post Profiles can display the count of contractors as collected via
WebPass.

Recommendation 19. We recommend that the Chief Information Officer, as required by Office
of Management and Budget (OMB) Memorandum M-11-33, FY 2011 Reporting Instructions for
the Federal Information Security Management Act and Agency Privacy Management, and OMB
Circular No. A–11, Preparation, Submission, and Execution of the Budget:

          Ensure that the Bureau of Information Resource Management/ Business Management
           and Planning track all obligations and expenditures for information technology
           security investments.

          Provide a summary of non-major investments that make up the information
           technology-Infrastructure and other major investments.

          Include the Unique Project Identifier in the Department of State’s Plans of Action and
           Milestones database.

2012 Status: Closed. As of August 2012, Unique Project Identifiers have been included in the
Department of State’s Plans of Action and Milestones database.




                                            44
                                       UNCLASSIFIED
                                     UNCLASSIFIED


                                                                                Appendix C

   C.End-to-End Configuration Management Process Needs Improvement
       Although the Department of State was taking actions to address the prior year noted
weaknesses with the configuration management controls, the weaknesses within configuration
management process still exist. During the independent vulnerability scanning analysis
performed, we identified the following issues as shown in Tables 1 and 2.

                    Table 1. Systems Without Critical Patches Installed

                                                          Total Number
                    No.    System Name Classification      of Patch and
                                                          Hot Fix Issues
                    1      NIV            Unclassified                 7
                    2      ASTORM         Unclassified                 0
                    3      ARS            Unclassified               157
                    4      CADSS          Unclassified                32
                    5      CRMSS          Unclassified                19
                    6      MCI            Unclassified                21
                    7      BMIS           Unclassified                 0
                     8     LFMS           Unclassified                27
                     9     STMS           Unclassified                15
                    10     TOMIS          Unclassified               173
                    11     CRTS           Unclassified                13
                    12     IIP_PMOS       Unclassified                33
                    13     OPENNET        Unclassified                25
                    14     GO             Unclassified               242
                    15     Remedy 7.0     Unclassified               287

                   Total                                            1,051

                  System Name        Third Party Patch Issues
                   (Number of
                     Servers
                    Affected)
                 ARS (6/10)    Oracle Java Critical Patch missing
                 BMIS (2/4)
                 STMS (1/3)
                 OPENNET(1/46)
                 GO (1/76)
                 Remedy (3/44)
                 CADSS(2/4)    Adobe Flash Player Multiple
                 GO (13/76)    Vulnerabilities

                                          45
                                     UNCLASSIFIED
                              UNCLASSIFIED


             Table 2. Systems Configured To Allow Unauthorized Users

System (Number
   of servers              Risk                        Description
    affected)
NIV(1/4)          Apache web server               Apache httpd Ranges Header
CRTS(1/12)        vulnerable to Denial of          Field Memory Exhaustion
                  Service Attack                             (DoS)
CADSS (2/4)       Confidentiality and Integrity   Web Server Supports Weak
CRMS (1/3)        can be violated.                SSL Encryption Certificates
MCI (1/2)                                            and SSL V2 protocol
STMS (2/3)
TOMIS (2/14)
CRTS (2/12)
OPENNET (2/46)
Remedy (1/44)
ARS (1/10)
CRMS (1/3)        Unauthorized access             Administrator Users Password
MCI (2/2)                                               Never Expires
BMIS (1/4)
LFMS (3/3)
STMS(2/3)
CRTS(1/12)
GO(11/76)
Remedy (5/44)
ARS(1/10)
MCI (2/2)         Buffer Overflow                 IBM Tivoli Storage Manager
BMIS(3/4)                                           Client JBB Functionality
GO(1/76)                                           Buffer Overflow Privileges
Remedy (8/44)                                               Escalation
STMS(2/3)         Access Bypass                     HP System Management
IIP_PMOS (3/14)                                       Homepage Multiple
OPENNET(10/46)                                           Vulnerabilities
GO(16/76)
Remedy (4/44)
TOMIS (3/14)      Confidentiality and Integrity     Oracle Application Server
                  can be violated.                   multiple Vulnerabilities
TOMIS(3/14)       Confidentiality and Integrity      Tomcat Example Web
Remedy (1/44)     can be violated.                  Application Vulnerable to
                                                   Cross-Site Scripting attack.
CRTS(4/12)        Denial of Service Attack          Symantec Veritas Backup
                                                  Exec for Windows RPC Heap
                                                            Overflow
CRTS(2/12)        Denial of Service Attack        IBM HTTP Server vulnerable
                                                      to Denial Of Service

                                   46
                              UNCLASSIFIED
                             UNCLASSIFIED


System (Number
   of servers             Risk                       Description
    affected)
CRTS (2/12)      Privilege escalation             Oracle Database multiple
                                                       vulnerabilities
IIP-PMOS(1/14)   Denial of Service Attack         IBM Lotus Notes Buffer
                                                         Overflow
GO(4/76)         Access bypass and Denial of      Citrix XenApp multiple
                 Service attack                        vulnerabilities
Remedy (1/44)    Denial of Service attack        MySQL Access Validation
                                                     Denial Of Service
                                                        Vulnerability
Remedy (1/44)    Confidentiality and Integrity   SAP Crystal Reports Server
                 can be violated.                 Multiple Vulnerabilities




                                  47
                             UNCLASSIFIED
                                          UNCLASSIFIED


                                                                                            Appendix D

                 D. Weak Active Directory User Account Management
       The Department of State needs to improve account management procedures and
processes in Active Directory (AD) for OpenNet and ClassNet. In FY 2011, the Office of
Inspector General reported deficiencies in account management. Although the Chief Information
Officer is taking action, the audit identified deficiencies with account management controls
covering Active Directory.

       Table 1 lists stale user accounts, user accounts that were never logged on, and accounts
with passwords that never expire and are not required.

                    Table 1. Count of Weak Active Directory User Account

           AD Tab        Count of Stale       Count of User           Count of             Count of
                         User Account         Account that         Passwords not          Passwords
                                              Never Logged        required (All AD       Never Expire
                                                  On                 accounts)             (All AD
                                                                                          accounts)
   AF                                 909                521                  2,123                 11
   Apps                                10                     6                      1            121
   CA                                  68                 75                  1,917                30
   ConUS                               40                 23                     82                 3
   DS                                 278                 95                   925                 37
   EAP                                858                675                  2,424                21
   EUR                                943              1,150                  4,152                20
   GFS                                    6                   3                      1              0
   NEASA                             1,112               773                  2,224                71
   OIG                                 12                 28                   103                 12
   SES                                144                     6                248                 60
   State                                  1                   7                      0              6
   WashDC                             705              1,742                  2,045               106
   WHA                               1,183               613                  3,090                31
   Grand Total                       6,269             5,717                 19,335               529


   Total User Accounts      116,821
   Total Service
   Accounts                  4,552
   Total Shared
   Mailbox Accts              329




                                               48
                                          UNCLASSIFIED
                                           UNCLASSIFIED


                                                                                      Appendix E

E.Sample Selection of Information Systems Listed in Information Technology
    Asset Baseline Used for FY 2012 Audit – Vulnerability Assessment
        The sample selection described in the title of this appendix is shown as follows:

          Name                Acronym          Bureau           Classification      Categorization

Freedom of Information        FREEDOMS           A                Classified            M|L|L
Document Management
System
State Archiving System 2       SAS2              A                Classified            M|M|L
A Bureau Metastorm            ASTORM             A               Unclassified          Moderate
Consular Affairs Rational      CRTS             CA               Unclassified          Moderate
Tool Set
Action Request System           ARS             CA               Unclassified          Moderate
Consular Affairs Domestic      CADSS            CA               Unclassified          Moderate
Support Suite
Consular Affairs ClassNet      CACLI            CA                Classified                High
Website
Non-Immigrant Visa System        NIV            CA               Unclassified          Moderate
electronic SAO Portal            eSP            CA                Classified           M|M|M
Technical Security              TSCM            DS                Classified           M|M|M
Countermeasures
Counterintelligence             CINA             DS               Classified            M|H|H
Network Application
The Office of Foreign          TOMIS             DS              Unclassified               High
Missions Information
System
Student Training                STMS            FSI              Unclassified          Moderate
Management System
IIP Program Management        IIP-PMOS           IIP             Unclassified          Moderate
and Outreach System
Local Financial                 LFMS            INL              Unclassified          Moderate
Management System
BMC Remedy IT Service         Remedy 7.0        IRM              Unclassified          Moderate
Management Suite
ClassNet Public Key             CPKI            IRM               Classified                High
Infrastructure
Global OpenNet                  GO              IRM              Unclassified          Moderate
OpenNet Plus Transport        OPENNET           IRM              Unclassified          Moderate
GSS
ClassNet                         CN             IRM               Classified           M|M|M
Medical Capabilities             MCI            MED              Unclassified          Moderate
Information database
Buildings Management            BMIS            OBO              Unclassified          Moderate
Integrated System
Central Resource                CRMS            RM               Unclassified          Moderate
Management System
Consolidated Reconciliation      CRS            RM               Unclassified          Moderate

                                                49
                                           UNCLASSIFIED
                                                      UNCLASSIFIED

System
Secretariat Telegram                  STEPS II                    S                       Classified                    M|H|H
Processing System (Second
Edition)
Secretariat Tracking and               STARS                      S                       Classified                    M|H|M
Retrieval System


                                                                 Legend
                                                              Bureaus

       A – Bureau of Administration                         INL-Bureau of International Narcotics and Law Enforcement Affairs
                                                            (INL)
       CA – Bureau of Consular Affairs                      IRM- Bureau of Information Resource Management
       DS – Bureau of Diplomatic Security                   MED – Office of Medical Services
       FSI - Foreign Service Institute                      OBO- Bureau of Overseas Building Operations
       IIP – Office of International Information Programs   RM- Bureau of Resource Management
       S- Office of the Secretary




                                                           50
                                                      UNCLASSIFIED
                                                  UNCLASSIFIED


                                                                                                                  Appendix F

             F. Missing NIST SP 800-53, Revision 3, Baseline Security Controls
      Name               Acronym         Bureau        Classification            FIPS                     NIST 800-53 rev 3
                                                                             Categorization
Electronic Passport          2DB          CA            Unclassified                Moderate         AC-22; AU-12; CM-9; IA-8;
 Application Form                                                                                     IR-8; MP-3; PE-4; PM1 to
 Internet Website                                                                                     PM11; SA-10; SC-28; SC-
                                                                                                                32; SI-7
Diplomatic Security         BPMS          DS            Unclassified                Moderate         AC-22; AU-12; CM-9; IA-8;
 Business Process                                                                                     IR-8; MP-3; PE-4; PM1 to
   Management                                                                                         PM11; SA-10; SC-28; SC-
     System                                                                                                     32; SI-7
 Consular Shared             CST          CA            Unclassified                Moderate         AC-22; AU-12; CM-9; IA-8;
      Tables                                                                                          IR-8; MP-3; PE-4; PM1 to
                                                                                                      PM11; SA-10; SC-28; SC-
                                                                                                                32; SI-7
  Global Affairs          Dashboard       RM            Unclassified                  Low             AC-19; AC-22; AU-6; AU-
   Dashboard                                                                                         12; CM-4; CM-7; CP-3; IA-
                                                                                                     8; IR-2; IR-5; IR-8; PM-1 to
                                                                                                     PM11; RA-5; SC-12; SC-15;
                                                                                                             SC-20; SI-12
Diversity Immigrant         DVIS          CA            Unclassified                Moderate         AC-22; AU-12; CM-9; IA-8;
 Visa Information                                                                                     IR-8; MP-3; PE-4; PM1 to
      System                                                                                          PM11; SA-10; SC-28; SC-
                                                                                                                32; SI-7
  Enterprise Data           EDW           IRM           Unclassified                Moderate         AC-22; AU-12; CM-9; IA-8;
    Warehouse                                                                                         IR-8; MP-3; PE-4; PM1 to
                                                                                                      PM11; SA-10; SC-28; SC-
                                                                                                                32; SI-7
  Electronic Visa           EVAF          CA            Unclassified                Moderate         AC-22; AU-12; CM-9; IA-8;
 Application Form                                                                                     IR-8; MP-3; PE-4; PM1 to
                                                                                                      PM11; SA-10; SC-28; SC-
                                                                                                                32; SI-7
   Visa Opinion             VOIS          CA            Unclassified                Moderate         AC-22; AU-12; CM-9; IA-8;
Information Service                                                                                   IR-8; MP-3; PE-4; PM1 to
                                                                                                      PM11; SA-10; SC-28; SC-
                                                                                                                32; SI-7
  Resource and          Web RABIT         RM            Unclassified                Moderate         AC-22; AU-12; CM-9; IA-8;
Budget Integration                                                                                    IR-8; MP-3; PE-4; PM1 to
      Tool                                                                                            PM11; SA-10; SC-28; SC-
                                                                                                                32; SI-7

                    Bureaus                                          SP 800-53 Control Family
   CA – Bureau of Consular Affairs          AC – Access Controls                            PE - Physical and Environmental
                                                                                            Protection
   DS – Bureau of Diplomatic Security       AU - Audit and Accountability                   PM - Program Management
   IRM- Bureau of Information Resource      CM - Configuration Management                   RA - Risk Assessment
   Management
   RM- Bureau of Resource Management       IA - Identification and Authentication           SA - System and Services Acquisition
                                           IR - Incident Response                           SC - System and Communications
                                                                                            Protection
                                            MP - Media Protection                           SI - System and Information Integrity

                                                       51
                                                  UNCLASSIFIED
                                                  UNCLASSIFIED


                                                                                                   Appendix G

     G.FISMA Reportable Systems That Have Not Completed the FY 2012
                         Contingency Plan Test
        The systems described in the title of this appendix are shown as follows:

          Name                        Acronym          Bureau                    Classification   Categorization

OpenNet Plus Transport                OPENNET            IRM                     Unclassified       Moderate
GSS
Global OpenNet                           GO              IRM                     Unclassified       Moderate
Freedom of Information                FREEDOMS            A                       Classified         M|L|L
Document Management
System
Secretariat Telegram                   STEPS II            S                       Classified        M|H|H
Processing System (Second
Edition)
Secretariat Tracking and               STARS               S                       Classified        M|H|M
Retrieval System
Bottom of Form
SPCD - (Classified)                    SPCNet           OBO                        Classified        M|H|H


                                                         Legend
                                                      Bureaus

       A – Bureau of Administration                 OBO- Bureau of Overseas Building Operations
       IRM- Bureau of Information Resource          S- Office of the Secretary
       Management




                                                       52
                                                  UNCLASSIFIED
                                                      UNCLASSIFIED


                                                                                                              Appendix H

    H.FISMA Reportable Systems Missing Alternate Processing Site Details
        The systems described in the title of this appendix are shown as follows:

          Name                        Acronym                 Bureau                 Classification          Categorization

IIP Program Management                IIP-PMOS                   IIP                  Unclassified             Moderate
and Outreach System
Global INL                             GINL                     INL                   Unclassified              High
Airwing Information System            AWIS                      INL                   Unclassified             Moderate
OpenNet Plus Transport               OPENNET                    IRM                   Unclassified             Moderate
GSS
Global OpenNet                         GO                       IRM                   Unclassified             Moderate
Freedom of Information              FREEDOMS                     A                     Classified               M|L|L
Document Management
System
Secretariat Telegram                  STEPS II                    S                     Classified              M|H|H
Processing System (Second
Edition)
Secretariat Tracking and               STARS                      S                     Classified              M|H|M
Retrieval System
Bottom of Form
SPCD - (Classified)                    SPCNet                   OBO                     Classified              M|H|H


                                                                 Legend
                                                              Bureaus

       A – Bureau of Administration                         IRM- Bureau of Information Resource Management
       IIP – Office of International Information Programs   OBO- Bureau of Overseas Building Operations
       INL-Bureau of International Narcotics and Law        S- Office of the Secretary
       Enforcement Affairs (INL)




                                                           53
                                                      UNCLASSIFIED
                               UNCLASSIFIED


                                                                                       Appendix I

                    IDepartment of State Response


                                                         United States Department of State
                                                         Chieflnformution Officer
                                                         Information Re~iOurce Management

                                                         Washington, D.C. 20520-63//

UNCLASSIFIED
                                                           NOV 7 20;2
MEMORANDUM

TO:         OIG - Mr. Harold W. Geisel

FROM:       IRM - Steven C. Taylor, Acting 51"

SUBJECT: Department Response to Draft Report on Audit of Department of State
         Information Security Program

REF:        OIG Memo dated October 24, 2012 Subject: Draft Report on Audit of
            Department of State Information Security Program

Thank you for the opportunity to provide a response to the subject report, Audit of
Department of State Information Security Program. This memorandum is to
inform you of the actions lRM has taken to comply with the requirements for
recommendations 1-30. For recommendations, 10, 11 , 16, 21 , 22, 27 , 28, and 29,
we thereby request that the status be "closed" and no further actions are required.
Forthe remaining recommendations, 1, 3, 4 , 5,6, 7, 9, 12,13,1 4, 17, 18, 19, 20,
23,24, 25 , and 26, we thereby request that the status be changed from "resolved"
to "closed" pending further actions. For recommendations 2 and 30, we agree that
they are "open" . Because of the separate issues identified in recommendations 8
and 15, we request that the recommendations be revised as noted in our response.
For your information we have included the initial OIG recommendation and the
Department Management Comments in Appendix A.

Should additional information be requested, please contact Mr. William G. Lay at
(703) 812-2339, for assistance. Thank you.




                                    54
                               UNCLASSIFIED
                                   UNCLASSIFIED




                                        UNCLASSIFIED
                                   OIG Resolution Analysis
                   Audit of Department of State b ifonnation Security Program
                                 (AUD/IT-XX-XX, Nov. 2012)



Recommendation 1. We recommend that the Information Security Steering Committee finalize
and implement an enterprise-wide continuous monitoring and risk management framework
strategy that addresses framing risk. assessing risk, responding to risk, and monitoring risk.

Management Comments (November 2012): The Department concurs with this
recommendation. The Department has provided the OIG with a document specific to the finding
entitled Continuous Monitoring Strategy willi Mitigation Risk-Based Framework. Within the
next six months. the document will be presented to the Information Security Sleering Committee
for review and approval.

The Department suggests that this recommendation is resolved and should be closed upon the
Information Security Steering Committee's finalization of the referenced document.

Recommendation 2. We recommend the Chief Information Officer, in coord ination
with the Bureau of Diplomatic Security and the Bureau of Information Resource
Management, include, under its continuous monitoring program, an effective method to
monitor the security posture for non· Windows operating systems, databases, firewaUs,
routers , and sw itches.

Management Response <November 2012): The Department concurs with this
recommendation. The Chief Information Officer, in coordination with the Bureau of
Diplomatic Security and the Bureau of Information Resource Management, will hold
discussions and develop documentation identifying methods for monitoring the security
posture for non· Windows operating systems, databases, firewalls, routers, and switches.

The Department suggests that this recommendation be left open.

Recommendation 3. We recommend that the Ch ief Information Officer, in coordination
with the Bureau of Information Resource Management, Enterprise Network
Management, and the Bureau of Diplomatic Security, finalize and implement the Cyber
Security Architecture draft target architecture and initiative for end·to-end configuration
management.

Management Response <November 2012): While the Department believes that the
current configuration management controls for the Standard Operating Environment
(SOE) platform have been fully documented and arc operating effectively and efficiently,
further documentation of key components (e.g., Cyber Security Architecture and end-to·
end configuration management) may be required. As such, actions will be Laken to meet
the intent of this recommendation.


The Department suggests that the recommendation is resolved and should be closed.




                                        55
                                   UNCLASSIFIED
                                     UNCLASSIFIED




                                       UNCLASSIFIED
                                   OIG Resolution Analysis
                   Audit of Department of State Information Security Program
                                 (AUDIlT-XX-XX, Nov. 2012)


Recommendation 4. We recommend that the Chief lnfonnation Officer, in coordination
with the Bureau of Consular Affairs. the Bureau of Administration. the Bureau of
Resource Management, the Office of Medical Services, the Bureau of Overseas Buildings
Operations, Lhe Bureau of International Narcotics and Law Enforcement Affairs. the
Foreign Service Institute, the Bureau of Diplomatic Security, the Bureau of International
Information Program, and the Bureau of Information Resource Management, continue to
improve their processes to patch servers within their system boundary in a timely manner.

Management Response (November 2012): The Department concurs with this recommendation.
The Department is continually improving processes to patch servers within their system
boundary in a timely manner. Updates will be generated periodically via email or cable to
ensure that there is proper notification within the Department.

The Department suggests that the recommendation is resolved and should be closed.

Recommendation 5. We recommend that the Security Configuration Management Branch
develop and publish the security configuration baselines for UN IX in accordance with the
Foreign Affairs Manual.

Management's Response (November 2012): The Department concurs with this
recommendation. In collaboration with the Bureau of Diplomatic Security. the Department will
review, develop and publish the security configuration baselines for UNIX, as needed, in
accordance with 12 FAM.

The Department suggests that the recommendation is resolved and should be closed upon the
publishing of the referenced security configuration baselines.

Recommendation 6. We recommend that the Chief Information Officer, in coordination with
the Bureau of Diplomatic Security/Security Infrastructure/Office of Computer Securi ty, research,
develop, and implement capabilities (for example, scanning tools) to perform periodic network
vulnerability and compliance scans on Oracle databases. applications, network devices (for
example, routers and switches), UNIX operating systems, and Demilitarized Zone servers.

Management Response (November 2012): The Office of Information Assurance and Bureau
of Diplomatic Security have previously identified Lhese areas as requiring tools. The process of
identification and acquisition of the appropriate tools will continue and once acquired, those
tool s will be incorporated into the Department's scanning program.

The Department suggests that this recommendation is resolved and should be closed upon the
Department's utilization of the referenced tools.

Recommendation 7. We recommend that the Chief Information Officer, in coordination
with Diplomatic Security/Security Infrastructure/Office of Computer Security, update the




                                          56
                                     UNCLASSIFIED
                                    UNCLASSIFIED




                                        UNCLASSIFIED
                                   OIG Resolution Analysis
                   Audit of Department of Stare Infonna tion Security Program
                                (AUD/IT-XX-XX, Nov. 2012)


Foundstone configuration to include subnets and Demilitarized Zone servers that were
not included in the Foundstone configuration for periodic scanning and obtain the
administrative credentials needed to perfonn the scans and periodically perform
discovery scanning to idcnlify new components added to the network.

Management Response (November 2012): The Department concurs with this recommendation.
The Office of Infannalion Assurance and !.he Bureau of Diplomatic Security have identified
these areas for improvement in the current scanning capab ility and are working collaboratively to
establi sh th is capab ility.

The Department suggests closure of this recommendation and should be closed upon the
establishment of the referenced capability.

Recommendation 8. We recommend that the Chief Information Officer, in coordination with
respective System Administrators from all bureaus, take immediate action to remove or lock
accounts that do not require a password and disable accounts that have not been used within the
past 90 days.

Management Response (November 2012): The Department does not concur with this
recommendation ali stated and request that it be revised to separately address 1) accounts
that do not require a password, and 2) accounts that have not been used within the past 90
days.

Regarding accounts that do not require a password, the Department concurs with this
recommendation and suggests that this recommendation is resol ved and should be
closed. The Department has taken corrective action on accounts that do not require a
password. IRM now receives automatic Active Directory alerts when any account is
created that does not require a password. This results in an immediate intervening
response by IRMiIA.

Regarding the passwords that have not been used within the past 90 days, this is a separate issue
and it is recommended that this portion of the recommendation be addressed in recommendation
9.

Recommendation 9. We recommend that the Chief lnfonnation Officer, in coordination with
the Bureau of Diplomatic Security, revise the Foreign Affairs Manual to provide authority 10 the
Chief Information Officer to review and identify accounts not used within the past 90 days and to
dc-activate such accounts and require lhe bureaus and posts to recertify the user account prior to
re-activating the account.

Management Response (November 2012): The Department concurs with this recommendation
and has initialed actions in coordination with the Office of Diplomatic Security to revise the 12
FAM to include language that provides authorilY 10 the Chief Infonnation Officer to review and




                                         57
                                    UNCLASSIFIED
                                       UNCLASSIFIED




                                          UNCLASSIFIED
                                    OIG Resolution Analysis
                    Audit of Department o/State injomlGlioll Security Program
                                 (AUD/IT-XX-XX, Nov. 2012)


identify accounts not used within the past 90 days and to de-activate such accounts and require
the bureaus and posts to recertify the user account prior to fe-activating the account.

The Department suggests that this recommendation is resolved and should be closed upon
issuance of the referenced FAM update.

Recommendation 10. We recommend that the Chief Information Officer, in coordination with
bureau and post Data Center Managers and System Managers. require the posts and bureaus to
configure all accounts to require an account password in accordance with the Foreign Affairs
Manual.

Management Response (November 2012): The Department does not concur with this
recommendation because the Department's actions are compliant with the applicab le FAM.
Specifically, the Department requires that user accounts be configured to require an account
password.

The Department suggests that this recommendation be closed.

Recommendation 11. We recommend that the Chief Information Officer, in coordination with
Bureau of Diplomatic Security, determine whether unauthorized access was performed using the
terminated employees ' credentials and whether Department information had been compromised.

Management Response (November 2012): The Department concurs with this
recommendation. As the OIG's report indicates, corrective actions have been taken by the
Bureau of Information Management to disable and remove the accounts from Active Directory
and analyses is conducted to determine if any unauthorized activities had been performed on
these accounts.

The Department suggests that this recommendation be closed.

Recommendation 12. We recommend that the Chief Information Officer, in coordination with
Information System Security Officers and system administrators of the Bureau of East Asian and
Pacific Affairs, the Bureau of Near Eastern Affairs, the Wa~hiI1gton District of Columbia, and
the Bureau of Western Hemisphere Affairs. improve the process of disabling tenllinalt:u
employees user accounts in a timely manner.

Management Response (November 2012): The Department concurs with this
recommendation. To improve the process, the Chief Information Officer, in coordination with
regional and funct ional bureaus, will initiate a pol icy that requires periodic review ensuring that
terminated employees user accounts are disabled in a timely manner.

The Department suggests that this recommendation is resolved and should be closed upon
issuance of the referenced pol icy.




                                            58
                                       UNCLASSIFIED
                                       UNCLASSIFIED




                                        UNCLASSIFIED
                                   OIG Resolution Analysis
                   Audit of Department of Slate Information Security Program
                                (A UDIIT-XX-XX. Nov. 2012)



Recommendation 13. We recommend that the Chief Information Officer, in coordination with
the Orientation and In-Processing Center. enforce the usc of the Depanment of State Logon
Request fonn for new users in Afghanistan.

Management Response (November 2012): The Department concurs with this recommendation.
In coordination with the Orientation and In-Processing Center, a proce..<;s will be developed and
implemented ensuring that new users in overseas locations complete the Department of State
Logon Request fonn.

The Department suggests that this recommendation is resolved and should be closed upon the
implementation of the referenced process.

Recommendation 14. We recommend that the Chief information Officer, in coordination with
Information Resource Management/Operations Directorate/Computer Security OfficclDesktop
Support Division, update the Information Technology Mart Standard Operating Procedures to
reflect the updated account management procedures for new users in Afghanistan.

Management Response (November 2012): The Department concurs with this recommendation
and will develop and update procedures on account management for new users in overseas
locations.

The Department suggests that this recommendation is resolved and should be closed when the
referenced procedures are updated.
                                                                                                    Ree. 15 11m. become
Recommendation 15. We recommend that the Chief Information Officer. in coordination with            Rec,\'. J5 and 16 ill
Office of the Secretary, develop and fmalize exemptions/waivers to allow for the deviation from     tlte filial report.
the standard of setting expiration dates for Office of the Secretary user account<; in Active
Directory and develop and implement a process that ensures that Office of the Secretary users
complete the required Cybcr Security Awareness Training on an annual basis.

Management Response <November 2012): The Department does not concur with this
recommendation as staled and requests that it be revised to separately address 1)
exemptions/waivers to allow for the deviation from the standard of setting automatic expirations
dates for Active Directory user accounts in the Office of the Secretary, and 2) develop and
implement a process that ensures that the Office of the Secretary users complete the required
Cyber Security Awareness Training on an annual basis.

Regarding exemptions/waivers, the Department concurs with this recommendation. SIES
already has a procedure in place to set expiration dates manually for user accounts in Active
Directory; a waiver to the automatic expiration policy will allow SIES to continue monitoring the
accounts and modifying them manually to ensure no interruption in service and compliance with
the relevant portions of the DS Security policy. The Department suggests that this




                                            59
                                       UNCLASSIFIED
                                       UNCLASSIFIED




                                        UNCLASSIFIED
                                   OIG Resolution Analysis
                   Audit of Department of Slate Information Security Program
                                (AUDIIT-XX-XX, Nov. 2012)


recommendation is resolved should be closed when me referenced policy is issued and
referenced process is implemented.

Regarding users complete the required Cyber Security Awareness Training on an annual basis.
the Department concurs with this recommendation and suggests that this recommendation is
resolved and should be closed. S/ES will ensure all employees receive cyber security awareness
training/briefings as required by The Federal Information Security Management Act of 2002
("FISMA", 44 U.S.C. § 3541, et seq.)

Recommendation J6. We recommend that the Chief Information Office, in coordination with          Nee. 16ltas become
                                                                                                 Nee. 17 ill the filial
Information Resource Managementllnformation Assurance, continue to review the security           report.
authorization and annual assessments to ensure that Information System Owner, Information
System Security Officer, and Security Control Assessor for all Federallnformation Security
Management Act reportable systems use the published Cenification & Accreditation Toolkit
templates during the arumal controls assessment to assess the required Nationallnstitute of
Standards and Technology Special Publication 800-53, Revision 3, Recommended Security
Controls/or FederallnfonnaJion Systems and Organizations controls applicable and update the
System Security Plan accordingly.

Management Response (November 2012): The Department asserts that the referenced
practices and controls are being fully implemented, and therefore does not concur with this
recommendation.

The Department suggests that this recommendation be closed.
                                                                                                 Nee. 17/1(1.\" become
Recommendation 17. We recommend that the Chief Infonnation Officer continue to                   Nee. /8 ill tltefilla!
                                                                                                 report.
track the progress of the full authorization of the OpenNer general support system.

Management Response (November 2012): The Department concurs with this
recommendation. The Chief Information Officer, the Bureau of IRM's Office of Information
Assurance, and the Office of Operations are all expending Significant time and resources to
ensure progress of the full authorization of the OpenNet general support system is occurring.
Ongoing progress reports are submitted to the Chief Infonnation Officer.

The Department suggests that this recommendation be closed.
                                                                                                 Nee. 18 has become
Recommendation 18. We recommend thatlhe Chief lnfonnation Officcr. in                            Nee. !9 ill tltefillul
coordination with Information Resource ManagementlInformation Assurance and Office               report.
of Computer Security (Diplomatic Security/Systems Integrity/Civil Service), update the
Information Assurance Training Plan to require newly hired and current employees and
contractors who are in positions that are responsible for the security of the organization's
information and information systems complete role-based security-related training before




                                            60
                                       UNCLASSIFIED
                                       UNCLASSIFIED




                                        UNCLASSIFIED
                                  OIG Resolution Analysis
                   Audit of Department of Slale injormaJion Security Program
                                (AUD/IT-XX-XX, Nov. 2012)


authorizing access to the system or performing assigned duties and periodically thereafter
(for example. annually).

Management Response <November 2012): The Depanment concurs with this
recommendation. The Office of Information Assurance and Office of Computer Security have
initiated actions to update the Information Assurance Training Plan and develop additional
language on newly hired and current employees, contractors, including role-based security-
related training.

The Department suggests that this recommendation is resolved and should be closed
when the referenced actions are implemented.
                                                                                                  Ree. 19 lias become
Recommendation 19. We recommend that the Chief Information Officer, in                            Ree. 20 i/llheftllal
coordination with Information Resource Management!lnformation Assurance and all                   report.
bureaus develop and implement monitoring processes and procedures to ensure that
personnel with significant security responsibilities receive the appropriate training in
accordance with the Information Assurance Training Plan.

Management Response (November 2012): The Department concurs with this recommendation
and believes both recommendation 18 and 19 are related. The Office of Information Assurance
and Office of Computer Security have initiated actions to update the Information Assurance
Training Plan and develop additional language on newly hired and current employees,
contractors. including role·based security·related training.

The Department suggests that this recommendation is resolved and should be closed
when the referenced actions are implemented.
                                                                                                  Ree. 20 lias hecome
                                                                                                  Rec. 21 ill 'heft"al
Recommendation 20. We rcconunend that the Chief Infonnation Officer, in coordination with         report.
the Bureau of Consular Affairs, the Bureau of Information Resource Management, the Bureau of
Human Resources, the Office of Medical Serviccs. the Bureau of Arms Control, Verification and
Compliance. the Office of the Secretary, and the Bureau of Overseas Buildings Operations
Bureau Executive Director or Information System Owner, their equivalent, or a designee, ensure
that responses are provided for the Quarterly Plan of Action & Milestones Grade Memorandums
to address how the bureaus and offices plan to close out the outstanding plan of action and
milestones, that the plan of action and milestones completion dates for corrective actions that
expired are updated and the resources required for remediation are updated, that remediation
actions undertaken for plan of action and milestones are verified in a timely manner, and that
required fields within the plan of action and milestones are included (for example, resources).

Management Response (November 2012): The Department concurs with this
recommendation. However. the Department wishes to share there has been notable progress on
this matter the past few months. As an example, the Office of Information Assurance ha~ taken




                                            61
                                       UNCLASSIFIED
                                      UNCLASSIFIED




                                       UNCLASSIFIED
                                 OIG Resolution Analysis
                  Audit of Departmeni of Stale in/ormaJion Security Program
                               (AUD/IT-XX-XX, Nov_ 2012)


action to include in the recently issued Plan of Action and Milestones (POA&M) grading
memos, instructions for the Bureaus to respond within 10 business days on their plans to
remediate and close open POA&M entries. A repon of the responders has been sent to the Chief
Information Security Officer for further action and escalation.

The Department suggests that this recommendation is resolved and should be closed upon
OIG validation of the referenced actions.
                                                                                                  Ree. 21 lias become
Recommendation 21. We recommend that the Chief information Officer, in coordination with          Ree. 22 in/he j blOl
the Bureau of Diplomatic Security, update the Foreign Affairs Manual, 12 FAM 680, to reflect      report.
the current process of granting administrators the capabilities for remote administration (for
example, allowing exception waivers for remote access administration).

Management Response (November 2012): The Department does not concur with this
recommendation. The current 12 FAM policy is clear and unambiguous on this topic. In
addition, the Office of Information Assurance's policy 00 the exemption process provides that
each exemption is fully documented and available for review.

The Department suggests that this recommendation be closed.
                                                                                                  Ree. 2211(15 become
Recommendation 22. We recommend that the Chief Information Officer, in coordination with          Ree. 23 ill tile filial
                                                                                                  reporl.
all bureaus and respective Executive Directors. improve their process for submitting service
requcslS to the Information Technology Service Center for key fobs/tokens for new employees.

Management Response (November 2012): The Oeparunenl does not concur with this
recommendation because the Department is compliant with the Office of Management and
Budget's requirement to track fobs/tokens to identify the personnel who participate in telework
oPpoItunitics.

The Department suggests that this recommendation be closed.
                                                                                                  Ree. 23 has become
Recommendation 23. We recommend that the Chief Information Officer, in coordination with          Ree. 24 in thefil10l
the Bureau of Diplomatic Security, update the Foreign Affairs Manual to provide guidance and      report.
direction for Continuity of Operations Plan development and implementation.

Management Response (November 2012): The Department concurs with this recommendation
and is currently working with OS to update the FAM.

The Department suggests that this recommendation is resolved and should be closed upon
issuance of the referenced FAM update.
                                                                                                  Ree. 24 has become
Recommendation 24. We recommend that the Chief Information Officer. in coordination with
                                                                                                  Rec. 25 ill Illefillal
the Bureau of Infonnatioo Resource Management/Information A'Osurance, perform an entity-          repOrt.




                                           62
                                      UNCLASSIFIED
                                      UNCLASSIFIED




                                        UNCLASSIFIED
                                    OIG Resolution Analysis
                   Audit of Depanmenr of Slate Information Securiry Program
                                (AUD/IT-XX-XX, Nov. 2012)


wide Business Impact Analysis and develop a strategy to prioritize recovery of the critical assets
within the Department and align the Business Impact Analysis of the primary mission-critical
functions with Information Resource Management's Maximum Tolerable Downtime for the
network.

Management Response (November 2012): The Department concurs with this recommendation
and has taken corrective actions to develop a Business Impact Analysis.

The Department suggests that this recommendation is resolved and should be closed upon
issuance of the referenced Business Impact Analysis.
                                                                                                     Ree. 25110.'; become
Recommendation 25. We recommend that the Chief Information Officer, in coordination with             Nee. 26 ill the filial
the Bureau of Information Resource Management/Information Assurance, develop a Continuity            report.
of Operations Plan for communications and the infrastructure at the Department level (entity)
that complies with National Institute of Standards and Technology Special Publication 800-34.
Revision I, Contingency Planning Guide for Federallnfonnation Systems, and includes the
standard elements of a Continuity of Operations Plan.

Management Response (November 2012): The Department concurs with this recommendation
and is taking the following actions:
   • The Chief Information Officer and the Office of Information Assurance are currentl y
        developing a Continuity of Operations Plan for communications that complies with the
        applicable N1ST guidance and will include the standard elements of a Continuity of
        Operations Plan.

The Department suggests that this recommendation is resolved and should be closed upon the
issuance of the referenced Continuity of Operations Plan.
                                                                                                     Ree. 26 lias become
Recommendation 26. We recommend that the Chief Information Officer, in coordination with             Ree. 27 illtheft/lOi
bureaus and the Information System Owners, document and maintain alternate site locations and        report.
procedures for accessing the alternate site and perform annual contingency plan tests and update
contingcncy plans with test results as necessary.

Management Response (November 2012): The Department concurs with this
recommendation. The Office of Information Assurance has taken corrective actions to
incorporate checklists questions regarding the exislence of alternate site locations, as well as
procedures for accessing these facilities. In addition. Annual Contingency Plan tests are
performed annually and there is a Contingency Plan toolkit on the Office of Information
Assurance's website that provides instructions to Bureau personnel for the testing and reporting
of Contingency Plans.

The Department suggests that this recommendation is resolved and should be closed upon OIG
validation of the referenced actions.




                                           63
                                      UNCLASSIFIED
                                       UNCLASSIFIED




                                        UNCLASSIFIED
                                  DIG Resolution Analysis
                   Audit of Depanment of State Information Security Program
                                (AUDfIT-XX-XX. Nov. 2012)


                                                                                                       Ree. 27 has become
Recommendation 27. We recommend that the Chief Information Officer, in coordination with Ree. 28 ifl/heftl/al
                                                                                           - . !eport.
the Bureau of Diplomatic Security, continue to ensure that annual physical inspections are
completed for all OpenNet and ClassNet extensions.

Management Response (November 2012): The DepaJtment concurs with this recommendation
and will continue to ensure compliance with established schedules.

The Department suggests that this recommendation be closed.
                                                                                                        Nee. 28 has become
                                                                                                        Ree. 29 illlhejil1l,t
Recommendation 28. We recommend that the Chief Information Officer, in coordination with              _ report.
the Bureau of Information Resource Management/Information Assurance. continue to review
System Security Assessment packages, annual controls assessments, and contingency plans tests
to ensure that bureaus are implementing the required National Institute of Standards and
Technology Special Publication 800-53, Revision 3, Recommended Security Controls for
Federal Information Systems and Organizatiom controls and updating System Security Plans for
the contractor-hosted systems.

Management Resoonse (November 2012): The Department concurs with this
recommendation. The Department will continue to conduct the nonnal processing reviews to
ensure compliance with NIST SP 800-53 rev. 3 and subsequent revisions.

The Department suggests that this recommendation be closed.
                                                                                                        Rec. 29110.\' become
                                                                                                        Ree. 30 ill tltejillal
Recommendation 29. We recommend that the Chief Infonnation Officer, in coordination with
                                                                                                        report.
the Bureau of lnfonnation Resource Management/Information Assurance, implement procedures
to coordinate security activities for tracking all extensions (that is, contractor sites and other
government agencies via iPost) to OpenNet and ClassNet.

Management Response <November 2012): The Department does not concur with this
recommendation. While the Department asserts the current process in practice arc effective.
periodic review of the process will be conducted and updates made when needed.

The Department suggests lhat this recommendation be closed.
                                                                                                        Rec. 30 "as become
Recommendation 30. We recommend that the Bureau of Information Resource Management                      Ree. 31 il1l11e jinal
senior management ensure that Information Technology Service Line Program Managers obtain               report.
the appropriate level of electronic Capital Planning Investment control tool training and
understanding regarding their electronic Capital Planning Investment Control reponing
requirements and that they are held accountable for completing their respective Exhibits 300.
including the accurate reporting of the resources required to protect their information systems, as
part of the next electronic Capital Planning Investment Control submission




                                            64
                                       UNCLASSIFIED
                                      UNCLASSIFIED




                                       UNCLASSIFIED
                                 OIG Resolution Analysis
                  Audit of Department of State Information Security Program
                               (AUD/IT-XX-XX, Nov. 2012)


Management Response (November 20 12): The Depanment concurs with this recommendation
and is identifying training opportunities to further understand the reporting requirements need to
ensure accurate reporting of Capital Planning Investment Control submissions.

The Department suggests that the recommendation be left open.




                                           65
                                      UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
